<html>
<title> - RIDING THE RAILS: HOW SECURE IS OUR PASSENGER AND TRANSIT INFRASTRUCTURE?</title>
<body><pre>[Senate Hearing 107-311]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-311

       RIDING THE RAILS: HOW SECURE IS OUR PASSENGER AND TRANSIT 
                            INFRASTRUCTURE?

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                           DECEMBER 13, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs



78-047              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Lawrence B. Novey, Counsel
             Kiersten Todt Coon, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                Ellen B. Brown, Minority Senior Counsel
         Morgan P. Muchnick, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Durbin...............................................     3
    Senator Voinovich............................................    11
    Senator Cleland..............................................    16
    Senator Carper...............................................    39
Prepared statement:
    Senator Bunning..............................................    49

                               WITNESSES
                      Thursday, December 13, 2001

Hon. Jennifer L. Dorn, Administrator, Federal Transit 
  Administration, U.S. Department of Transportation..............     5
Richard A. White, General Manager, Washington Metropolitan Area 
  Transit Authority..............................................    18
Jeffrey A. Warsh, Executive Director, New Jersey Transit 
  Corporation....................................................    21
Ernest R. Frazier, Sr., Esquire, Chief of Police and Senior Vice 
  President of System Security and Safety, Amtrak................    25
Dorothy W. Dugger, Deputy General Manager, San Franscisco Bay 
  Area Rapid Transit District (BART).............................    27
Hon. Trixie Johnson, Research Director, Mineta Transportation 
  Institute......................................................    31

                     Alphabetical List of Witnesses

Dorn, Hon. Jennifer L.:
    Testimony....................................................     5
    Prepared statement...........................................    50
Dugger, Dorothy W.:
    Testimony....................................................    27
    Prepared statement with attachments..........................    84
Frazier, Ernest R., Sr.:
    Testimony....................................................    25
    Prepared statement...........................................    79
Johnson, Hon. Trixie:
    Testimony....................................................    31
    Prepared statement with an attachment........................    91
Warsh, Jeffrey A.:
    Testimony....................................................    21
    Prepared statement...........................................    73
White, Richard A.:
    Testimony....................................................    18
    Prepared statement with attachments..........................    58

                                Appendix

MTI Report 01-14 entitled ``Protecting Public Surface 
  Transportation Against Terrorism and Serious Crime: An 
  Executive Overview,'' October 2001 by Brian M. Jenkins 
  (submitted by Ms. Johnson).....................................    95

 
       RIDING THE RAILS: HOW SECURE IS OUR PASSENGER AND TRANSIT 
                            INFRASTRUCTURE?

                              ----------                              


                      THURSDAY, DECEMBER 13, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, in room SD-342, 
Dirksen Senate Office Building, Hon. Joseph I. Lieberman, 
Chairman of the Committee, presiding.
    Present: Senators Lieberman, Durbin, Cleland, Carper, and 
Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and welcome to our 
hearing on the question of ``Riding the Rails: How Secure is 
our Passenger and Transit Infrastructure?'' This is the latest 
in a series of hearings being conducted by the Governmental 
Affairs Committee which are intended to examine the Federal 
Government's ability to protect our citizens from terrorist 
attacks here at home.
    Since September 11, the Committee has actually held almost 
a dozen hearings on homeland security, each time looking at a 
different piece of the whole picture. We have examined the 
security of our airports, our shipping ports, and our water 
ports. We have looked at how the Postal Service responded to 
anthrax sent through the mail. Just 2 days ago, we took a look 
at how we might strengthen the relationship between Federal, 
State, and local governments regarding homeland defense because 
of the important role those other levels of government have in 
this new responsibility.
    Throughout all of this, we have tried to determine how the 
Federal Government can better organize itself to quickly and 
effectively respond to acts of terror and proactively prevent 
future threats. This extensive examination has enlightened us, 
I think, to the different needs and concerns of a variety of 
sectors, but it has also revealed some common threats.
    Almost to a witness, the Committee has heard indications of 
poor coordination between different levels and layers of 
government, and we have heard frequent complaints about the 
failure to share information among layers of government.
    Today we are going to explore the ability of our rail and 
transit systems to protect their passengers and infrastructure, 
and I believe from the testimony that I have seen of some of 
the witnesses that there are some common themes that will be 
raised once again.
    Attention has naturally been paid to airport security by 
Congress, with obvious good reason, because the attacks against 
us on September 11 occurred through the aviation system. But 
there has not been comparable attention to rail security, and 
preventively and proactively, it seems to me we have to do 
exactly that. Trains and the transit system can be targets of 
terrorists. They travel in a predictable path at predictable 
times. Every year, America's public transportation 
infrastructure, by which I mean subway, light rail, commuter 
rail service, as well as bus and ferry, and inter-city rail, 
carries 9 billion passengers. Let me repeat that. Nine billion 
passengers use our transit systems as compared to 700 million 
air travelers annually.
    So we have a lot more people in this country depending on 
transit systems and their security. Transit systems have in 
fact experienced the highest growth rate of any transportation 
mode over the past 5 years. So today we are going to ask what 
have we done and what can we do to secure them?
    The enormous number of people who ride the rails begin to 
explain why transit systems must be better protected. The fact 
is that our transportation system actually plays an important 
role in not only moving people and goods but in the security of 
the Nation. After September 11, for example, Amtrak helped 
bring emergency supplies to New York, provided passage for 
families of the World Trade Center victims, and helped 
transport mail around the country.
    Here in the Washington Metropolitan Area, half of the Metro 
stations serve Federal facilities, so they are important to the 
ongoing operation of the Federal Government; and one-third of 
the riders of the Metro system here in Washington are Federal 
employees. By moving people to and from their jobs, therefore, 
these transit systems keep our country going.
    Passenger and transit rails are also essential components 
of any evacuation from a disaster site, as again was the case 
on September 11 in New York City, where trains unloaded 
passengers and then returned as close as they could to Ground 
Zero to move stranded people out of harm's way, and here in 
Washington, where the Metro carried Washington area workers 
away from the Pentagon and the Capitol to the safety of their 
homes.
    Unfortunately, terror is not a new threat for transit 
systems. The Department of Transportation reported in 1997 that 
in the previous 6 years, public transportation had been the 
target of 20 to 35 percent of terrorist attacks worldwide. In 
this country, we have thus far been relatively spared and 
fortunate. However in this country, an unknown saboteur 
derailed Amtrax's Sunset Limited in Arizona in October 1995, 
killing one person and injuring 100. And in a very different 
way, the 1993 shootings aboard the Long Island Railroad also 
opened our eyes to transit system susceptibility to violence, 
because they are a gathering place for people.
    The most devastating attack worldwide on transit systems, 
of course, was launched against Tokyo subway commuters in March 
1995, when terrorists released sarin gas during the morning 
rush hour, killing 12 people and making thousands of others 
sick. The next year, another attack on the Tokyo subway was 
thwarted when a package of hydrogen cyanide gas was discovered 
in a station restroom. Bombs have also exploded in train 
stations in Italy, in the Paris metro, and bombs have also, of 
course, sadly, been exploding on buses in Israel, including in 
recent days.
    With this history, several transit systems have adopted 
plans to prevent and respond to a terrorist attack, including 
improving their ties with local, State, and Federal law 
enforcement agencies, awareness training, and revised emergency 
procedures. In fact, well before September 11, the Washington 
Metropolitan Area Transit Authority implemented a range of 
anti-terrorism measures, such as chemical-detecting sensors and 
annual terrorism training for transit police officers.
    Since September 11, the Boston Transit Authority, for 
example, has created a four-member task force that is at work 
on ways to improve the ability of that transit system to 
protect the safety of their subway and bus riders.
    But we have to ask if these fragmented efforts are enough. 
We have to ask what the Federal role should be in overseeing 
and stimulating action to protect the security of our Nation's 
transit systems. Transit security cannot be sidetracked while 
other homeland defense concerns claim our time and resources. 
We have to now bring as much talent and focus, as many tools 
and training and technology, and ultimately, as much financial 
support, to the challenge of providing transit security as we 
do for the security of other elements of our critical 
infrastructure. And again I say that because of the enormous 
number of people who use our transit systems, the fact that 
they travel in predictable places at predictable times, and the 
extent to which our country and our economy depend on the 
smooth functioning of our transit system.
    I hope that today's hearing will help us answer some of 
these questions, learn what the Federal Government and others 
in the transit systems are doing and that, working together, 
with the private sector as well as governmental actors here, we 
can take steps to protect America's transit and rail 
passengers.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Chairman Lieberman, and thank 
you to the witnesses and everyone who has gathered here today.
    I want to thank you for holding this hearing. It is 
certainly appropriate. If you had scheduled this hearing before 
September 11, it would have been an interesting and valid topic 
for us to talk about; but after September 11, it has become a 
very personal concern to all of us as we try to imagine the 
next attack and where it might occur.
    I think this hearing is going to try to examine an area of 
American life that so many people--as Senator Lieberman said, 9 
billion people a year using mass transit and over 22 million a 
year using Amtrak--just take for granted as part of their daily 
routine. I think this has become a major issue when it comes to 
our Nation's homeland defense, and I am glad that the Federal 
Transit Administrator, Jennifer Dorn, will be testifying today 
about how the Federal Government is working with local transit 
systems like the CTA, Metro, and MetroLink in Illinois, on 
important security issues.
    I have a special concern about Amtrak, and I have met with 
George Warrington and the people from Amtrak. It is an 
important element of transportation in my State, and I believe 
that Congress has been remiss in not providing resource to 
Amtrak to deal with security needs to the level that is 
necessary. I think they have a good plan to make Amtrak safer, 
and I think they need our help, and I don't believe we should 
postpone that; we should do it as quickly as possible, or 
frankly, run the risk of some terrible consequences.
    I would ask that my whole statement be made part of the 
record, but I would like to address very briefly the issue of 
mass transit and a conversation that the Democratic Senators 
recently had with a guest at a luncheon. The guest was Dr. 
Fauci from the National Institutes of Health, and he gave us an 
example that has stuck with me. He came to make the 
acquaintance of a man who was involved in preparing the 
bioterrorist weapons for the Soviets during the Cold War. This 
man is now a friend of ours and talks quite openly about what 
they were doing, and one of the things that they were preparing 
was anthrax. They wanted to know the best way to disperse 
anthrax to kill as many people as possible. So they developed a 
mutant strain of anthrax which was not lethal but had all the 
other properties of the anthrax spores, and this individual 
said they figured the best place to disperse it would be the 
Moscow subway system. So they went to the ventilator at the 
Moscow subway system on one end and put their detection devices 
at the other end and fed the anthrax spores into the 
ventilation system of the Moscow subway. He asked the Senators 
present how long do you think it took for those anthrax spores 
to make it from one end of the Moscow subway system to the 
other. The answer was 2 hours--2 hours. When you consider the 
physics of travel in a subway and a tunnel and a train sucking 
air and all of its contents through the tunnel, you can 
understand what an inviting target subways and mass transit can 
be for any terrorist or bioterrorist. It was a fact that I have 
not forgotten, obviously, and am repeating it to you today.
    I hope that as we think about our responsibility in public 
life here, dealing with making transit and travel safe across 
America, that we understand, as the President and the Attorney 
General have warned us time and again, that this Nation is on 
alert. That is why this hearing is so timely, and I hope that 
our resolve to deal with it will be just as timely.
    [The prepared statement of Senator Durbin follows:]

              PREPARED OPENING STATEMENT OF SENATOR DURBIN

    Thank you, Mr. Chairman, for holding today's hearing to examine the 
security of America's passenger and transit rail infrastructure. Rail 
infrastructure and security are critical components of homeland defense 
as our country continues to move forward following the tragic events of 
September 11.
    I want to welcome the Federal Transit Administrator, Jennifer Dorn, 
I look forward to her testimony about how the Federal Government is 
working with local transit systems, like CTA, Metra, and Metro Link in 
Illinois, on important security issues.
    This morning, I'd like to focus my attention on Amtrak. My home 
State of Illinois benefits greatly, both directly and indirectly, from 
Amtrak jobs and service. An average of 48 Amtrak trains run each day 
from 30 Illinois communities. Ridership in the State exceeded 2.9 
million during 2000. In 1999, Amtrak employed more than 2,000 Illinois 
residents. And Chicago's Union Station is the nation's fourth busiest 
with more than 2.2 million annual boardings.
    America learned on September 11 the importance of passenger rail 
service to our nation's transportation system. Despite many years of 
inadequate funding and a lack of capital investment, Amtrak answered 
the nation's call when terrorist attacks paralyzed the aviation 
industry. Ridership grew by 40 percent in the first week alone for long 
distance trips. Even today, more than 3 months after the attacks, 
Amtrak ridership is up system-wide. Despite Amtrak's ability to adjust 
to the post-September 11 service demands, the fact remains that Amtrak 
is not prepared to provide the security and safety necessary to operate 
under the looming threat of further terrorist attacks.
    As a result, the Commerce Committee has reported legislation to 
help Amtrak meet the financial costs of providing security to 
passengers. S. 1550 would provide $1.77 billion for police hiring and 
training, surveillance equipment, canine-assisted security units, 
bridge and track upgrades and station improvements. I strongly support 
this legislation, and am pleased to be an original cosponsor.
    Just a few weeks ago, the Congress overwhelmingly passed 
legislation to strengthen aviation security. But September 11 also 
taught us that we cannot ignore rail travel, and we cannot ignore rail 
security. S. 1550 takes a big step forward.
    The Federal Government spends $33 billion each year on highways and 
$12 billion on air travel. Yet train travel only receives $500 million 
annually. Before September 11, Amtrak was $3 billion in debt and facing 
a 2003 deadline to achieve financial independence. Congress has sent 
conflicting messages to Amtrak--we want it to operate like a business, 
but we demand service to our States and local communities. While the 
Federal investment in intercity passenger rail represents less than 1 
percent of all Federal spending on transportation, I am hopeful that 
Congress will do more for passenger transportation and security.
    In closing, our commitment to every American should be to make our 
national transportation system as safe as humanly possible. I hope 
Congress will act quickly to secure vital rail infrastructure, enhance 
Amtrak trains and in stations, and ensure that Amtrak is prepared to 
handle the increase in ridership that has occurred as a direct result 
of September 11 attacks.

    Chairman Lieberman. Thanks very much, Senator Durbin. I 
remember that conversation with Dr. Fauci, and it was chilling. 
But, I appreciate your recalling it, because it is exactly why 
we are holding the hearing today. There is a way in which the 
Committee hesitates to raise these questions. But, if we do not 
raise them, we are going to make ourselves vulnerable to the 
possibility that we may look back and ask why didn't we raise 
them, and why didn't we do what was necessary to protect 
ourselves from terrorist attacks.
    So thanks very much for your opening statement, Senator 
Durbin, and for being here.
    We are very pleased that the Hon. Jennifer Dorn, 
Administrator of the Federal Transit Administration, is with us 
today, and we look forward to your testimony now.

 TESTIMONY OF HON. JENNIFER L. DORN,\1\ ADMINISTRATOR, FEDERAL 
   TRANSIT ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Dorn. Thank you very much, Mr. Chairman, and thank you, 
Senator Durbin.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dorn appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, thank you for 
providing this important opportunity to discuss safety and 
security in our Nation's public transit systems and, as the 
Chairman mentioned, the significant and high-profile attention 
that is being paid to the aviation area.
    I want to assure you, as I believe my colleagues who will 
appear after me will tell you, of the incredible level of 
attention and cooperation that has occurred particularly since 
the events of September 11. We may not have reached the 
millennium in terms of how we can work and talk together, but 
even though it is not in a high-profile way--and in some ways, 
that is not a bad thing--I just want to let you know that from 
the Federal Government's perspective and I think from my 
partners in State, local, and private industry, we have been 
doing our due diligence as much as possible.
    I certainly share Secretary Mineta's strong commitment that 
the Department has no higher priority than keeping our 
communities safe and moving, and the Department is taking 
responsible and aggressive action to do just that.
    In order to respond to the new level of security threats 
within days of the September 11 tragedy, Secretary Mineta 
created the National Infrastructure Security Committee, or 
NISC, as we refer to it, and that mission is to execute 
preemptive, preventive, protective and recovery efforts for 
critical elements of the U.S. national transportation system, 
among which, of course, are many of our public transportation 
assets. And FTA has worked vigilantly with NISC, the States and 
transit agencies to identify these high-value critical assets 
and high-consequence transportation operations and structures 
in order to protect the people who are traveling, as well as 
their current protection strategies and any gaps which may 
exist.
    I would just like to mention with respect to our work with 
the Office of Homeland Security, that kind of coordination and 
integration takes place on a daily basis at every level in the 
Department. The Secretary meets almost daily with his 
counterparts on homeland security as does the deputy, as do the 
staff level as well, and I think you will see unprecedented 
levels of cooperation in contrast to maybe what has happened in 
the past, where there is competition and turf battles. I think 
everybody is really focused. That does not mean that we will 
not face problems, but it has been inspiring to work in that 
kind of environment.
    Secretary Mineta and I recently had the opportunity to hold 
a teleconference with the leaders of the Nation's 14 subway 
systems, and I know you will not be surprised to learn that 
these systems remain on high alert and are doing all that they 
can to deter attacks and prepare to respond. They have stepped 
up employee training and awareness, put more police in stations 
and on trains, joined local task forces to combat terrorism, 
and hardened vulnerable areas in their systems.
    Have we done all that we possibly could do? No, but in the 
confines of the open system in which we operate, I think we 
have taken prudent measures, and we are always eager to find 
others.
    You will also be pleased to know that the industry has 
expressed a strong desire to work closely with FTA and other 
Federal agencies and welcome a collaborative approach to 
security enhancement, as we do. I know that has been your 
emphasis, Mr. Chairman, that at all levels, we must work 
together and leverage one against the other to solve the 
problem, and I have seen that level of cooperation to date with 
the public transportation system, and that has made me proud.
    As we consider a variety of measures to improve security in 
our Nation's transportation system, I do believe that we must 
keep in mind two fundamental points--first, that our actions 
must carefully balance three things--the need for security, the 
need for personal mobility, and the need to maintain economic 
vitality. So we cannot do one without the other, and I believe 
that we need to keep those in mind.
    The second piece that I think is important to keep in mind 
is that the Nation's public transportation systems are 
geographically dispersed within communities, that they are 
diverse in the way they deliver the services, and most of all, 
they are designed to meet the unique features and needs of the 
areas they serve, and that is the wonder of our locally-based 
public transportation system.
    It is also a problem in this environment. Among my 
colleagues in aviation security, there is a saying recently 
developed that ``If you have seen one airport, you have seen 
one airport,'' and that is also true of our Nation's transit 
systems. So that makes the problem-solving very unique.
    Every transit system has different components--tunnels, 
bridges, open rights-of-way, and different intersections with 
other means of transportation, connecting with airports as some 
do, train stations, highways, and some of our systems are 100 
years old, and coping with design features that could never 
have been anticipated, the criminal let alone the terrorist 
threats of today, and others are brand new, built using 
security-minded design concepts and state-of-the-art 
technology.
    The risk mitigation strategies for such diverse systems 
will, of course, be different, so that one size does not fit 
all, and that is a danger in any administration that is 
federalized when we are trying to mandate things, that it has 
to accommodate to the uniqueness of this system.
    With those points in mind, then, let me very briefly 
discuss the steps that FTA has taken and is taking to enhance 
the security of the Nation's public transportation system.
    As you may be aware, FTA delivered nearly 1,000 security 
toolkits across the Nation to transit agencies at the beginning 
of October. These kits provided in one place the resource 
guides, the planning tools, the training opportunities, and 
sample public awareness publications to help agencies as they 
continue to enhance their security awareness and emergency 
response capabilities.
    We gathered these from industry, from FTA, and from other 
agencies, that have these training courses and so on, 
available. We thought it was important that every transit 
agency had in one place the opportunities of which they could 
take advantage.
    We are also stepping up our ongoing efforts to help transit 
agencies evaluate the threat and vulnerabilities to their 
systems in light of the new terrorist reality. Beginning 
December 17 and continuing over the next 90 days, FTA will 
deploy expert security assessment teams to the 30 largest 
transit agencies. I believe this is a terribly important effort 
both locally and nationally. The teams will use proven threat 
and vulnerability assessment methodologies.
    We have experts from the transit arena, from the 
intelligence community, and from many other arenas that have 
security skills, and they will assess the security gaps in the 
agencies' high-consequence assets and make specific 
recommendations to reduce the risks.
    I would like to note that a number of our transit agencies 
have already done this in a pre-September 11 environment. This 
is meant to be a complementary method, not a ``Gotcha,'' but to 
work with them and understand how you have a system to assess 
the security, what are the gaps, and then move forward.
    The second important piece of that security assessment is 
that the teams will assess the agencies' emergency response 
plans and the coordination of their emergency efforts with 
associated fire, police, and other emergency response agencies.
    The next important thing we are doing is that with funding 
from the emergency supplemental now pending in Congress, we 
will be providing assistance to these transit agencies as they 
refine their emergency response plans in light of their system 
assessments. So we want to go the next step, not just to 
understand what may be the gaps, but also to address the plans 
that will help to execute against those gaps, and then assess 
the heightened terrorist threats. These plans serve as the 
blueprints for action in the wake of an attack and articulate 
who will take the specific steps necessary for emergency 
response.
    Third, FTA will provide support to local transit agencies 
to conduct full-scale emergency drills to test those emergency 
response plans. In my visits with New York and Washington 
transit officials and many others across the country since 
September 11, they emphasized how important it was that they 
had conducted regular emergency drills, not just fire drills, 
to keep skills sharp, update response plans, to work together 
across agencies that have not typically worked together--that 
is, fire and emergency medical response organizations and 
counterparts in police, fire, etc.
    Although regular drills are routinely recommended by 
security experts in FTA and elsewhere, there is nothing like 
hearing advice from people who have lived it, as we have done 
through the benefit of the lessons learned from New York and 
Washington.
    Finally, we will be offering additional security training 
and workshops throughout the country. We intend to expand our 
free security and emergency response training to incorporate 
new security strategies and tactics and to give more local 
transit employees the opportunity to attend response training.
    The first eight of these workshops are scheduled in early 
2002 and will include transit managers, fire and police and 
municipal emergency operations management personnel, and I hope 
that we could work with this Committee on some marketing 
efforts to encourage that those be well-attended.
    In addition to this work with local transit agencies, we 
have worked with the public transit industry and are devoting 
an additional $2 million of research funding to security-
related transit research under the auspices of the Transit 
Cooperative Research Program. One important research project 
which I am certain Mr. White will address in his testimony is 
being undertaken regarding synthesis of available security 
technology to deploy in a transit environment, Project Protect, 
a chemical detection device.
    In summary, Mr. Chairman, FTA is confident that our major 
transit systems have taken appropriate measures to harden 
security since September 11. We must continue to be vigilant 
and be smarter and better about this, so we have not reached 
the millennium in terms of our efforts, and we recognize that.
    Given the inherently open nature of our public 
transportation system, it is frankly more important to 
concentrate on the mitigation rather than the prevention. That 
is the reality. You cannot put a scanner at every subway stop, 
and you cannot inspect every package, and we recognize that. We 
are proud of a system that has been created over the decades 
which is open, accessible, and part of the community, and in 
order to respond to these terrorist threats, I think our 
emphasis really needs to be on mitigating the risks and 
emergency response.
    Thank you very much.
    Chairman Lieberman. Thanks very much to you, Ms. Dorn, for 
an excellent statement. I particularly appreciate the proactive 
steps that you are taking, the teams that are going out, the 
plans that you are requiring.
    Emergency drills are very important. We had the head of 
emergency management in New York here the other day, and I 
think they feel in New York that one of the reasons they were 
able to respond to the tragedy on September 11 so effectively 
is that they actually had exercises that did not, of course, 
deal with the Trade Center attack but dealt with a wide enough 
area that they were ready to deal with it.
    Let me come to something you said at the end which is a 
very difficult question, and that is whether we mitigate or 
prevent when it comes to transit systems. And I will introduce 
my question by saying that a member of my family was recently 
on a train and was struck, because we all have in mind the 
increased security as we go on planes, for instance--we are 
checked; we go through screening devices; our baggage is now 
opened, and so on, and then we get on the plane. On the 
trains--well, you tell me, and I will ask others--it tends not 
to be so. So she felt insecure, even though she loves to use 
the trains.
    I wonder about that, because our whole approach to post-
September 11 has been to first try to prevent, not only by the 
war against terrorism to try to destroy the terrorists before 
they can attack us, but then also to raise our guard so that 
the targets will be harder, and the terrorists will go for more 
vulnerable targets.
    Shouldn't we therefore also be concentrating on prevention 
when it comes to the transit systems?
    Ms. Dorn. Oh, absolutely. I totally agree with you that we 
do not and have not ignored the prevention aspect, but the 
types of mitigating efforts that are in other transportation 
systems--for example, in aviation, where there is a single 
point of egress and access--it is just not possible because you 
have so many stops and so on.
    There are very important measures----
    Chairman Lieberman. I agree, that is a problem, and that is 
a difference.
    Ms. Dorn. And there are things nevertheless that we have 
learned that transit systems have taken in the wake of this 
tragedy, best practices that have been shared about employee 
training, for example, in order to give the public confidence 
that they are aware and know and see and are the eyes and ears 
as much as possible. Employee training is absolutely imperative 
so that they can be on the lookout for passengers that have 
aberrant behavior or something of that type. And they can give 
the confidence to the riding public.
    For example, I recall a discussion with the Miami transit 
folks, and the day after they had an anthrax problem, they sent 
employees, not only the operators, but other employees, out on 
the trains, and they advertised it on television and said, ``If 
you have any questions, we will all be on the train.''
    That sort of generation of public confidence is important 
not just for PR, but because we rely on public transportation, 
and we must continue to do that.
    We have also taken steps, varying depending on the 
geographic area--for example, in Boston, they have made the 
determination that it is appropriate to have waste cans that 
are bomb-proof, so they have spent money on that piece. All of 
the transit agencies ``have taken a look at have we hardened 
our construction sites?''
    All those activities are a series of systems. No single 
effort can make the prevention absolutely certain, but they are 
terribly important. And we also have to recognize that we have 
to prioritize. What may be a priority in one system in order to 
mitigate threats may not be a priority because of the nature of 
that system in another area.
    Chairman Lieberman. I understand that it is difficult, and 
I am going to ask the folks on the next panel who are involved 
in the management of transit systems about that.
    I understand, for instance, that at some train stops, there 
are no stations so that people can basically get out of their 
cars and walk in. How do you check them and their baggage, and 
is it possible to create a system that does that?
    My bias would be just as a passenger that I would like to 
feel to the extent possible that people who are on the train 
with me have gone through some kind of security and perhaps 
their baggage has as well. But I am going to take that up with 
the next panel.
    This has been such a year that I sometimes lose my sense of 
timing, but I think it was earlier this year that the accident 
occurred in the tunnel in downtown Baltimore, with a freight 
train carrying toxic material. And as I recall it, commuter 
rails and public transportation were disrupted for a period of 
days because of the proximity of those commuter rails to the 
freight rails and tunnel and obviously because of the toxicity 
of the clouds and smoke, let alone the fact that it was such an 
extraordinary event that it took quite a while to clear that 
tunnel.
    If you are able--and I do not know whether you were 
involved in this at all or in the oversight of it--I wonder 
whether you know if there was an emergency response plan in 
place to deal with that, was it ineffective, and more 
generally, what lessons did we learn from that event that can 
help us today as we deal with the more specific terrorist 
threat?
    Ms. Dorn. Yes, Mr. Chairman. I did not have specific 
responsibility with the FTA, but in reading the reports and 
discussing with my colleagues who do, it is my understanding 
that there was an emergency response plan in place and that 
there had been drills taking place, and in spite of the 
situation, I think it was handled as well as possible.
    It does demonstrate, however, the real importance of a 
community having not only an emergency response plan but also a 
mobility plan that makes sense so that if something happens to 
a tunnel that is shared by freight and commuters and others, 
there are alternatives and you have plans in place to respond 
to such emergencies.
    One of the issues that has been raised by the transit 
agency officials universally is the need to have that timely 
dissemination of pertinent intelligence information, and that 
can and should happen at the local level, but I think there are 
also ways to encourage that. There is a level of frustration, I 
think, on the part of transit agency managers that when they 
hear that, oh, yes, we are on alert, is there anything more 
specific that the intelligence community and the police 
community can share with them so that there are gradations of 
that, because this whole sustainability effort of being able to 
make sure--you cannot keep everyone on the highest level of 
alert for an extended period of time, so it does make sense to 
have the gradations of those. So that is something that I think 
we need to work together on from the Federal level to encourage 
the responsiveness of the intelligence community, locally, and 
there is no substitute for knocking on your colleagues' doors, 
whether it is the mayor's emergency response center, to make 
sure there is a coordination which is vital there.
    Chairman Lieberman. Thanks, Ms. Dorn. My time is just about 
up. Senator Voinovich.
    Senator Voinovich. Mr. Chairman, how much time do we have?
    Chairman Lieberman. Eight minutes, but please make yourself 
at home.
    Senator Voinovich. Thank you.

             OPENING STATEMENT OF SENATOR VOINOVICH

    First, Mr. Chairman, I would like to thank you for the 
series of hearings that you have had on the issue of security. 
I think all of these issues are of worthy consideration, and 
the hearings have generated dozens of recommendations, and I am 
sure we are going to be hearing some this morning about what we 
should be doing with transit.
    One thing that I think we need to look at is the aggregate 
cost the government is going to face to go forward with a lot 
of these recommendations that we have heard about. As you well 
know, we have now spent all of the Social Security surplus and 
are now borrowing money, so we need to be working harder and 
smarter and doing more with less.
    So I would really be interested in hearing from Ms. Dorn 
and the other witnesses today about where we should spend money 
to get the biggest return for our dollar. There are some major 
issues, for example, in the City of Columbus, where they are 
talking about rerouting freight trains out of the city and 
using the tracks for light rail to help with transit but also 
to alleviate the concern that people have of moving hazardous 
waste through the neighborhoods and through the downtown area.
    I was interested in your comment about intelligence, and 
one of the things I discussed with the Chairman yesterday was 
that it seems to me that we ought to look at that whole area of 
intelligence and whether the intelligence agencies have the 
personnel to get the job done and also about how they are 
sharing information with people across the country who might be 
in jeopardy and be able to prevent things if they have the 
right information.
    I would like to remind the Committee that when former 
Secretary of Defense Schlesinger testified before this 
Committee earlier this year, he indicated that ``It is the 
Commission's view that fixing the personnel problem is a 
precondition for fixing virtually everything else that needs 
repair in the institutional edifice of U.S. national security 
policy,'' and now we are talking about our security right here 
in the United States.
    So I would be interested in your observations about that. 
But I will say this to you. I am very impressed with what you 
have done already. I think it is very impressive. The other 
thing I want to say is that I am very impressed with the fact 
that you are not coming in and saying, ``We are from 
Washington, and this is what you should do'' and that you have 
been impressed with the fact that State and local agencies have 
been on their toes and, as the Chairman has said, have had 
trial runs and so forth, and if they had not had that, we would 
have some more difficult problems today in the country.
    I would be interested in knowing two things. What are you 
doing to gather best practices across the country? And, what 
are you doing to evaluate the cost of these various practices 
to see where you can get the biggest return for your buck? You 
have done so much work already, and you have a new security 
person coming on board, Mr. Magaw, who--and I talked to 
Secretary Mineta on Monday--by the way happens to be an Ohioan 
who started with the State Patrol in Ohio and then moved on to 
the Secret Service and headed up Executive Protection.
    Chairman Lieberman. That speaks well for him.
    Mr. Voinovich. Yes, they are Ohio's finest.
    Anyway, if you could respond to those two questions, and if 
you cannot get to both, just give me the first one.
    Ms. Dorn. OK. With your permission, Senator, I would like 
to just mention briefly what you mentioned about spending 
priorities. I think that is a very critical question. When we 
first took a look at this, and where can we most effectively 
get the most bang for the buck, we realized that because every 
system is unique, the assessment approach locally, with an 
expert team, is probably the best way to figure out where it is 
that we can get the most mitigating kinds of factors and really 
get returns on our investment. So that Cleveland and other of 
our top 30 transit agencies will be a party to this assessment 
in the next 90 days, and that will help us understand not only 
nationally but, most important, locally, where the money should 
be spent.
    Senator Voinovich. Let me ask you this. When you get done 
with this and you have completed the evaluation, will you make 
all of those best practices available so that they can look at 
them in kind of a smorgasbord and see if there may be some 
ideas out there that somebody else is doing that might be neat 
that they could adopt?
    Ms. Dorn. Absolutely. In fact, the best practices piece is 
already aggressively underway. With our transit partners, we 
have done a search to figure out what are the best practices in 
everything from guidelines on anthrax scares to other kinds of 
things like packages that might be vulnerable. We have 
collected those and are beginning to distribute them through 
brochures, through publications, through the training 
institutes that are being held throughout the country; so we 
all are doing our level best. We know that we cannot invent it 
here, and nobody wants to reinvent it, and there have been some 
very creative strategies. So that is No. 1 on our list, as well 
as the training piece, because we think that is really 
important as well.
    Tell me your second question again, if you would, please.
    Senator Voinovich. In terms of priority, are you going to 
try to identify those things that are the least expensive and 
most effective?
    Ms. Dorn. Yes, and some of those are what you call the 
``soft'' kinds of expenditures, in terms of capital equipment, 
in terms of cameras and those things can be very important and 
not particularly expensive, especially when you view them in 
lieu of having more cops on the beat. Many of the transit 
agencies are saying that because they do not have the funds at 
this point to do the capital equipment that in effect what they 
are doing is having more cops on the beat. That may or may not 
be the most effective thing, and it certainly is not 
sustainable at a high level.
    So there are some capital investments that I believe some 
are making and others should.
    Senator Voinovich. Cameras would probably give people 
confidence if they knew they were there. Part of your problem 
right now is just to get people to have confidence that they 
can return to their normal way of doing things.
    Have you noticed across the country that there are fewer 
people using public transit today?
    Ms. Dorn. Actually, that too is a mixed report. What we 
have found, at least from the top 30, is that one-third have 
higher ridership, one-third have less ridership than September 
11, and one-third are about in the middle. This is just an 
anecdotal series from the top 30. Only some of those that have 
decreased ridership have said it is a result of lack of public 
confidence, that it is due to other issues related to economic 
issues, etc.
    So it is very different, and I also wish we had the luxury 
of time to determine how much in those areas where the 
ridership is decreased, like the Chairman's relative who said, 
``I'm not sure that I want to ride,'' how much of that we can 
ameliorate by taking certain steps to give public confidence. 
It is always a fine balance between how much do you want to 
give public confidence, and the other part is that sometimes, 
the passengers can be your most effective eyes and ears, 
particularly on commuter rail, because on commuter rail, you 
have the traditional numbers and types of passengers, and they 
know each other, and many of the commuter railroads are 
beginning to do that by putting things on the seats saying, 
hey, please be alert, please be vigilant. Those are the kinds 
of best practices that we would like to share and to evaluate 
more systematically.
    Senator Voinovich. My time is up.
    Chairman Lieberman. Do you have another question?
    Senator Voinovich. I was just going to say that you have a 
new person coming on board right now, and I wondered if you had 
discussed at all what that role would be in regard to what you 
are already doing.
    Ms. Dorn. Absolutely. I am very pleased and proud, as you 
are, about Mr. Magaw taking on that responsibility. And 
certainly, Senator, as the Congress intended, TSA is making a 
very focused effort at this point on aviation. However, what is 
very encouraging to me in my discussions with the TSA officials 
is that they are cognizant that their organizational structure 
which is now focused on aviation must eventually be absorbed 
throughout the modes. So they are not doing anything in a 
vacuum without consciousness of that. And it is my 
understanding that TSA has set as a time target June 2002 when 
they plan to provide integrated security coverage to the U.S. 
transportation network, covering all modes and geographies.
    So in the meantime, as we have been advised by the TSA 
folks, when in doubt, run your agency. And I can tell you that 
we are not using the rationale that, well, TSA is going to be 
doing this; we are vigilantly, each of the modes, and my 
colleagues in highways, rail, etc., are saying we are going 
about our business in a coordinated fashion as aggressively as 
possible, and when TSA is ready to take over, we hope and 
expect that it will be a seamless transition.
    Senator Voinovich. That is terrific. It is wonderful to 
know, and the public should know that this person is coming on 
board, but you have not been waiting for them; you have been 
out there, getting the job done.
    Ms. Dorn. No; we cannot wait.
    Senator Voinovich. I have to tell you that I have been very 
impressed with your testimony this morning.
    Thank you very much.
    Chairman Lieberman. Thanks, Senator Voinovich. Senator 
Durbin.
    Senator Durbin. Administrator Dorn, thank you again for 
being here, and thank you for coming to Chicago recently; we 
were happy to be there for a great announcement on the 
expansion of our CTA, and your agency will play a great role in 
that as they have in the past.
    I am trying to step back for a second and make a risk 
assessment when it comes to transportation, based on what we 
have done in Congress. Obviously, we have decided that the 
highest risk is associated with air travel, and we have 
invested great resources, we have taken on a new Federal 
responsibility, we are demanding of passengers more scrutiny 
than any other mode of travel. I think that has a lot to do 
with September 11 and the involvement of airplanes; it has a 
lot to do with the vulnerability of an aircraft as opposed to 
other forms of travel.
    Then, when you are dealing with the next level, with 
passenger rail, Amtrak has decided to require valid photo IDs 
when a person purchases a ticket, and there are other things 
that we will hear about that they are doing to make their 
system safer.
    Then, to the next level, mass transit, using the rails 
still but with a much larger volume, it is not realistic to use 
the same standards that we are using either for airlines or for 
Amtrak.
    I am trying to ask in the most general terms a 
philosophical question. Is there a conversation about 
appropriate risk assessment and realistic security response in 
terms of not really closing down our open and free society, but 
increasing confidence in security? Is that conversation going 
on at a philosophical level?
    Ms. Dorn. Absolutely, it is. There is no question that the 
emphasis, as I believe is appropriate, is on the aviation 
system. But there is a real consciousness that the public 
transportation system needs to concentrate particularly on the 
tunnels, the high-traffic transit centers where many people 
gather, and those other critical assets, either because of the 
ridership issue or the value of them to our total 
transportation system.
    No one has said that the risk in aviation is ``x'' percent, 
and the risk in public transportation is ``y'' versus Coast 
Guard, etc.; but the conversation is always assuming every mode 
has a vulnerability, and we must be as aggressive as possible.
    I feel that it is too soon to determine what additional 
resources would be required at every level, and that is why I 
am pleased that we are moving forward in the assessments. We 
need to get a better handle on that. The discussions are taking 
place with OMB and within the Department, but it is not a 
science, it is an art in some respects.
    Senator Durbin. We are all doing our best in light of 
September 11, and I join with Senator Voinovich and thank you 
for what you have done, as well as Secretary Mineta and the 
President, in this area. We need to work together.
    I might just alert my colleagues that one area that I have 
really picked up an interest in, and it does not directly apply 
to mass transit, but it does apply to this whole question of 
security, is the photo ID which is now ubiquitous, which we are 
all pulling out and showing at airports and many different 
places, which frankly is a very, very limited tool to deal with 
security. At best, it matches a photograph with a face and a 
name that may or may not be a valid name. I am hoping to have a 
hearing in January on expanding the standards for State 
driver's licenses and State ID cards so that we have some 
uniformity and so that mode of identification is really 
consistent to certain standards across America. That is just an 
aside that I wanted to mention.
    Let me ask you just very briefly in closing what have you 
found to be the most cost-effective examples of enhanced 
security in mass transit so far?
    Ms. Dorn. It depends on the system, but I would say 
establishing relationships across the modes in terms of 
authorities locally, police, fire, mayor's office, and transit 
agencies so they are comfortable working together, they have a 
plan, they have resources to execute against that plan, they 
have practiced that. I think that is the most important and in 
some ways the most difficult aspect of this piece. Some of the 
transit managers who have done this several years ago have said 
to me, ``Hey, the first 6 months, we all got around the table 
and defended our turf, and once we got to know each other and 
trusted each other and got down to business, we developed the 
partnership that is critical in order to assure as much as 
possible the safety of the traveling public.''
    So that is an investment that is a ``soft'' investment but 
is absolutely critical.
    Senator Durbin. ``Soft'' in terms of bringing them 
together, but let me give you an illustration of where expenses 
come in. My Governor comes to me and says, ``Senator, in 
Illinois, we have great police departments, great fire 
departments, great first responders at all levels--and no 
communications network--none. We need $20 million as quickly as 
you can get it to us, because we are strapped with this 
recession in State revenues, so that we can establish a 
Statewide communications network which would serve transit and 
transportation and virtually all other crises that might 
involve our State.''
    So many of us are really hoping that this recognition of 
the best first step will be followed with the dedication of 
resources in simple ways to the communications system so that 
they can be much more effective in that effort.
    Ms. Dorn. I totally agree with you. In fact, that is one of 
the very important initial efforts of the TSA, to establish 
that kind of information network and system, which we would 
like to be able to translate across the modes. That is an 
important linkage that even some transit agencies do not yet 
have within their city, much less at various levels.
    So it is an important arena, but in order to make those 
decisions about what kinds of investments, Federal, State, 
local, I think we need to have more information.
    Senator Durbin. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Durbin. 
Senator Cleland.
    Senator Cleland. Thanks very much, Mr. Chairman.

              OPENING STATEMENT OF SENATOR CLELAND

    May I just say as a member of the Commerce Committee that 
we have gotten involved in these transportation and security 
issues, and I have come across a quote by Anthony Kordsman, a 
terrorism expert at the Center for Strategic and International 
Studies here in Washington. He says that he strongly expects 
that any future terrorist attack will not employ the same 
tactics used on September 11. ``The next time they attack,'' he 
says, ``they will not be using aircraft. The likelihood is they 
will use a different weapon, something to break up the 
predictability.'' He went on to say, ``It could be mass transit 
or it could be public utilities, historic sites, or the media. 
Tightening security in one area will tend to push terrorists in 
other directions, but one act of mass terrorism does not 
predict the next occurrence.''
    Mr. Chairman, mass transit was on Mr. Cordesman's list of 
possible targets, and why not? Almost one-third of terrorist 
attacks around the world target public transportation. The 
system is vulnerable with the number of transit stops and 
stations, the thousands of hazardous material deliveries daily, 
passengers' easy access to the system, the hundreds of 
thousands of miles of track to defend.
    I would just like to say a word about Amtrak. Passenger 
rail has been the red-headed stepchild of the transportation 
family for 50 years. The U.S. Government has never done for 
Amtrak and commuter rail lines what it has done for airports 
and highways. Since Amtrak was created 30 years ago, the 
government has invested $35 billion in the system. Contrast 
that with the fact that we have invested $380 billion in our 
roads and $160 billion in our airports.
    To compound the situation, Congress passed a law 4 years 
ago requiring Amtrak to be operationally sufficient by the end 
of next year or face liquidation. Now I read in Mr. Frazier's 
testimony that Amtrak since September 11 has diverted over $12 
million from its operating funds to beef up its security. 
Amtrak has had to use money that it should be using for 
operating its trains for one reason and one reason only. 
Congress has not provided Amtrak with any security relief, even 
though we provided $15 billion to the airline industry and 
billions more to strengthen our airports and airplanes.
    Granted, the Senate DOD appropriations bill earmarks $100 
million for Amtrak security, but we know that Amtrak needs $3.2 
billion for security.
    Mr. Chairman, Amtrak is vital to America's national 
transportation system, vital to our economy and to our national 
defense. For weeks, Senator Hollings, Chairman of the Commerce 
Committee on which I sit, has been trying to bring the rail and 
port security bill to the Senate floor. Because of objections 
from certain members, the fate of that crucial bill is still in 
limbo. This is unacceptable.
    For national security reasons, America needs legislation 
which will provide Amtrak with significant dollars--$1.8 
billion--to improve security for the 60,000 passengers it 
transports each day.
    We can and we must do better than this. So I thank you, Mr. 
Chairman, for holding this important hearing, and I look 
forward to the testimony of our witnesses.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Cleland.
    I want to ask you one or two wrap-up questions, Ms. Dorn. 
Your testimony has been very helpful.
    Except in the case of Amtrak, it seems to me that providing 
rail transportation is largely a responsibility of State, 
local, and regional governments, and of course, the private 
sector. I wonder if, in light of the events of September 11, 
you think that relationship ought to change at all. Is there 
need for a larger Federal role in transportation, generally, 
transit, generally, and/or particularly in transit security 
questions?
    Ms. Dorn. Generally, the Federal role, as I understand it, 
has worked well in terms of allowing--and the belief on a 
bipartisan basis is that the States and localities really need 
to decide how their transportation systems will work and that 
there is a responsibility on the part of the Federal Government 
to assist, because public transportation and transportation in 
general, in order to have a viable economy throughout the 
Nation, must occur. So I think that balance has worked very 
well.
    In terms of the security role, I think our minds should be 
open to the possibility. It is too soon to tell whether there 
needs to be an additional hook from the Federal perspective, 
but I think we should be very cautious about it, because the 
tendency, then, if we do that is that we either provide the 
unfunded mandate that may or may not fit the need of a 
locality, or we just move forward in a way that is really not 
responsive to the uniqueness of the system.
    So I think we have to be very cautious about that, but I 
think this administration is open-minded about what security 
efforts need to be taken in public transportation, and I am 
eager to work with the Committee in that regard.
    Chairman Lieberman. I thank you very much for your 
testimony, and I wish you well in the proactive steps that you 
are taking. Thank you very much.
    I will now call forward the second panel, which includes 
Dorothy Dugger, Deputy General Manager of the San Francisco Bay 
Area Rapid Transit District; Ernest R. Frazier, Senior, 
Esquire, Chief of Police and Senior Vice President of Systems 
Security and Safety at Amtrak; Trixie Johnson, Research 
Director of the Mineta Transportation Institute; Jeffrey Warsh, 
Executive Director of the New Jersey Transit Corporation; and 
Richard White, General Manager of the Washington Metropolitan 
Area Transit Authority.
    Thank you all very much for being here. You are really 
leaders of transit systems around the country, and your 
presence here gives us a very good opportunity to understand 
the security needs of America's transit systems post-September 
11, so I appreciate the time and the effort that you made to be 
here.
    We are going to begin with Mr. White. Thanks very, very 
much for being here. Mr. White is General Manager of the 
Washington Metropolitan Area Transit Authority.

 TESTIMONY OF RICHARD A. WHITE,\1\ GENERAL MANAGER, WASHINGTON 
              METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. White. Good morning, Chairman Lieberman and Members of 
the Committee. Thank you for asking me to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. White with attachments appears in 
the Appendix on page 58.
---------------------------------------------------------------------------
    I am Richard White, and I am the General Manager of the 
Washington Metropolitan Area Transit Authority. I want to thank 
the Committee for your interest in ensuring the security and 
protection of our Nation's rail transit systems. I also want to 
both thank and commend Secretary of Transportation Mineta and 
Federal Transit Administrator Dorn for their proactive efforts, 
as you have just heard, in protecting our Nation's 
transportation infrastructure, including our transit systems.
    Mr. Chairman, my written statement which I am submitting 
for the record, details the unique role that WMATA performs in 
the National Capital Region. Three decades ago when Congress 
created WMATA to build and operate a rapid transit system for 
the Nation's Capital, it was recognized that quality rapid 
transit for the region's residents and visitors was essential 
to the operations of the Federal Government.
    I would like to note that WMATA's original enabling 
legislation, the National Capital Transportation Act, 
originated in this Committee. Today, approximately 40 percent 
of the region's residents commute on transit to jobs in the 
heart of the region's employment center. Half of our 84 
stations, as you said, Mr. Chairman, in your opening statement, 
serve Federal facilities, and about 36 percent of the locally-
based Federal work force commute on our Metro system. As the 
second-largest U.S. rail system and the fifth-largest bus 
system, we carry more than 1.1 million daily trips. We operate 
a 103-mile system, 762 railcars, 1,443 buses, 7 rail 
maintenance facilities, 10 bus garages, and various other 
smaller satellite facilities throughout the region.
    Being located in the National Capital Region, we recognize 
our special role in serving the Federal Government and the 
Federal City, including providing transit and enhanced security 
for large crowds, attending special events on the national Mall 
and elsewhere.
    On September 11, when we were needed most by the National 
Capital Region, we were ready and we delivered. Essentially, we 
assumed a new role and became the primary mode of evacuation 
for our region, running back-to-back rush hour services as 
Federal workers and others quickly fled the city, often leaving 
their cars behind.
    The role was further defined when we were asked by the 
Pentagon to open half an hour early at 5 a.m. for a 30-day 
period to support the Department of Defense as they heightened 
security clearances and encountered major traffic congestion 
accessing the Pentagon building.
    Even before September 11, WMATA had developed and 
implemented a number of programs and operating procedures to 
deal with threats to our system in the major areas of 
prevention and mitigation, preparedness and response, and 
recovery.
    We have prepared a System Safety and Security Program Plan, 
developed operating procedures to guide a variety of responses, 
established procedures for activating and utilizing our 
emergency operations command center using an incident command 
system protocol, and created redundant communication systems.
    We have been conducting annual counter-terrorism and 
explosive incident training for police and operations personnel 
and had a high level of interagency coordination with the many 
Federal, State, and local law enforcement, fire, and emergency 
response agencies in the area. We have monthly meetings with 
our local fire and emergency rescue agencies and active daily 
contact with our local police departments. We sponsor an annual 
multi-jurisdictional drill to test training and response 
readiness of all of our coordinated agencies in the region. 
Further, we have one of our police officers assigned to the 
local FBI Office of Counter-Terrorism in order to have access 
to key intelligence information, to flag possible threats and 
prevent their occurrences. Access to key intelligence 
information, in my opinion, is perhaps the most critical thing 
we can do to help prevent negative occurrences. I appreciate 
the discussion on the issue of prevention versus response.
    In the aftermath of the 1995 nerve gas attack on the Tokyo 
subway, we have spent considerable resources on emergency 
preparedness, including developing in conjunction with the 
Departments of Energy, Transportation, and Justice the first 
chemical detection system to be used in a transit environment 
anywhere in the world. WMATA is considered to be one of the 
safest transit systems in the country in large part because of 
design features like clear sight lines for video camera 
surveillance, use of noncombustible materials throughout the 
system and vehicles, failsafe train control systems, an 
extensive alarm system covering all of our station facilities, 
electrical power substations and ventilator shafts, right-of-
way fencing and intrusion detection devices, fully-functional 
and monitored train radios including emergency alarms, and 
video cameras in all of our rail stations.
    Some of the new measures taken specifically to enhance the 
protection of our physical infrastructure include hardening the 
cab door locks in all 762 of our trains, conducting daily 
security sweeps of all of our facilities and otherwise ensuring 
the tight security of the critical elements of our 
infrastructure such as tunnels, vent and fan shafts, emergency 
exits, traction power substations and communication rooms. We 
have provided personal protective gear for our police personnel 
and soon, for all of our front-line employees. We have removed 
trash cans and newspaper recycling bins throughout the system 
and intend to replace them with bomb-resistant containers. We 
are in the process of installing recorders for our existing 
rail station video cameras and are installing a fiberoptic 
connection to link the cameras back to our central control 
facility for monitoring and response.
    We are in the process of developing a continuity of 
operations plan which includes a number of contingency plans, 
and we have launched an enhanced public awareness and safety 
campaign.
    On October 12, we sent a request to the Office of 
Management and Budget detailing our security needs of $190 
million, based on the assessments that we have made to date. A 
copy of this is attached to my written statement.
    We have also worked with the Metropolitan Washington 
Council of Governments, which is our region's coordinating 
agency for the 17 jurisdictions of local government. Their 
purview covers the various aspects of public safety and 
emergency management, health, and various infrastructure 
protection components such as our transportation, water and 
energy, and waste and debris management systems.
    In my opinion, now is the time for the Nation to consider 
that transit systems truly are a part of the national defense 
system and to contemplate the value of transit as the 
evacuation method of choice and possibly necessity during 
emergency situations. Every mode of transportation is important 
during emergencies, but transit is able to move people much 
more quickly and efficiently than congested roads and highways.
    Given the fact that WMATA is located in the National 
Capital Region and is so integral to the workings of the 
Federal Government, there is even a greater need to make sure 
that we can meet the operational and security challenges that 
lie ahead.
    As we saw on September 11, Metro has proven to be an 
indispensable asset that provides essential services to the 
Federal Government and its work force. In order for WMATA to 
fulfill this homeland defense role, we must act to enhance our 
security capabilities even further, as well as expanding the 
capacity of our infrastructure. Our rail system was built as a 
two-track railroad with little redundancy or ability to reroute 
trains in response to an emergency. We have extremely limited 
underground storage capacity and must often bring trains from 
long distances to replace a disabled train. If we need to rely 
on a large number of buses to transport individuals in the 
event of an emergency or if a portion of our rail system is 
incapacitated, we do not have sufficient spare buses for this 
service.
    Transit service in New York City was able to be partially 
restored quickly after September 11 due to the configuration of 
their system. New York's multiple rail lines and connections 
give it the ability to reroute trains and provide service after 
some of its rail lines were incapacitated. To adequately 
prepare for emergencies, WMATA must connect its rail lines in 
order to provide alternative paths if a portion of the system 
is impacted. Both security and capacity must be enhanced at 
significant additional cost if we are to protect transit riders 
and be able to serve the region in case of an emergency 
evacuation.
    The unparalleled, longstanding Federal-regional 
partnerships that created WMATA has endured, and we have become 
a model for the Nation, as Congress originally envisioned. We 
urge you to consider the vast challenges that WMATA faces as a 
transit system for the Nation's Capital, as well as how lessons 
learned in this environment can be used throughout the Nation.
    We have reached out to various parts of the Federal 
Government seeking technical assistance and guidance and 
funding as we move aggressively to enhance the level of 
protection of riders on America's transit system. We look 
forward to having a dialogue with this Committee as you examine 
the Federal Government's role, particularly in the National 
Capital Region, in ensuring that the Metro system continues to 
be not only one of the safest transit systems in the world, but 
also one that is well-prepared to meet the demands of the new 
millennium.
    Again, I want to thank the Committee and the Chairman for 
the opportunity to appear before you today, and I would be 
pleased to answer any questions after the testimony of others.
    Chairman Lieberman. Thanks, Mr. White. That was very 
interesting testimony, and I look forward to the question 
period.
    The next witness is Jeffrey A. Warsh, Executive Director of 
the New Jersey Transit Corporation. Thank you for being here.

   TESTIMONY OF JEFFREY A. WARSH,\1\ EXECUTIVE DIRECTOR, NEW 
                   JERSEY TRANSIT CORPORATION

    Mr. Warsh. Good morning, Chairman Lieberman, Senator 
Voinovich, and distinguished Members of the Senate Committee on 
Governmental Affairs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Warsh appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    My name is Jeff Warsh, and I am the Executive Director of 
New Jersey Transit Corporation, the Nation's third largest 
transit agency and the largest statewide transit provider in 
the Nation.
    I want to thank this Committee for all of your efforts to 
address transit and rail security issues, and I would also like 
to thank and commend FTA Administrator Dorn, who has done a 
fantastic job right out of the chute, and Secretary of 
Transportation, whom I call ``Stormin' Norman'' Mineta, in this 
new battle on terrorism for their efforts in securing our 
transportation networks.
    New Jersey Transit is responsible for the security of more 
than 223 million riders who use our system each year. Since 
September 11, the dynamics of keeping our passengers safe and 
secure have changed dramatically and we believe forever. Not 
only has the threat we are facing changed, but the actual 
nature of the commute in and around New York City has been 
transformed by the terrorist attacks of 3 months ago. New 
Jersey Transit was dramatically impacted by these events 
because approximately 40 percent of our New Jersey Transit 
riders are destined for New York City either on train or on 
bus.
    In the immediate aftermath of the attacks on the World 
Trade Center, New Jersey Transit worked hand-in-glove with 
Amtrak to increase security, and we could not have done it 
without them. Amtrak halted trans-Hudson Tunnel traffic and 
searched and secured the Hudson River Rail tunnels before 
reopening them later on September 11. Select train stations 
were evacuated and secured before reopening. Parking lots below 
train tracks were cleared of all cars. Roads in close proximity 
to certain train stations were and still remain blocked to 
automobile traffic.
    Amtrak placed guards proximate to the Northeast Corridor 
tunnels and bridges, our lifeline in New Jersey and on the 
entire East Coast. Amtrak and New Jersey Transit police have 
increased patrols with New Jersey Transit police working 12-
hour shifts. We distributed a list of major facilities to local 
police departments to enlist their help in critical asset 
protection.
    New Jersey Transit also implemented additional security 
measures. We contracted with local police departments to 
supplement our own force, including complying with a Coast 
Guard order to provide armed police for significant ferry 
operations that we run all along New Jersey's ``gold coast'' on 
the Hudson River across from New York City.
    We saw great increases in the number of bomb threats and 
anthrax scares all of which proved, thank God, to be unfounded 
but still put massive strains on our police force.
    The closure of the PATH tunnels and the imposition of a 
single-occupancy vehicle ban on Hudson River crossings with 5 
hours' notice has meant that many former PATH and automobile 
commuters are now using New Jersey Transit service through 
Amtrak's North River tunnels.
    September 11 shifted 67 percent of the jobs from Lower 
Manhattan's Financial District to Midtown, which is served by 
New York Penn Station. In addition, many commuters destined for 
Lower Manhattan are now taking our train service to Penn 
Station and transferring to the New York City subway system to 
Lower Manhattan.
    With Amtrak's assistance, New Jersey Transit has added two 
trains to Manhattan and has increased the number of cars on 
other trains to the maximum number that the platform in New 
York Penn Station will allow. We have also accelerated the 
opening of a section of the new concourse at New York Penn 
Station to deal with the crunch loads on the platforms. With 
all these commuting changes, approximately 100,000 riders a day 
now take either New Jersey Transit or Amtrak trains from New 
Jersey to New York City every day. We have seen close to a 50 
percent increase in riders on our Northeast Corridor service 
through the Amtrak tunnels to New York's Penn Station.
    This commuting pattern shift only serves to underscore the 
importance of increased life safety measures in those tunnels. 
The Congress has expressed its concern regarding Amtrak tunnel 
life safety in and around New York City. The North River 
tunnels are approaching 100 years of age. Evacuation routes, 
fire retardation and ventilation systems in the tunnels must be 
significantly improved.
    I am here today to add New Jersey's voice to the chorus. 
Funding for these improvements is critical. I was pleased to 
see $100 million appropriated in the Senate's defense 
appropriation bill for North River tunnel life safety issues. 
These improvements are more important to New Jersey Transit 
than to Amtrak, as 75 out of 100 trains each day that pass 
through the North River tunnels are New Jersey Transit trains. 
Amtrak needs more funding to make those improvements now more 
than ever.
    Beyond improving life safety and security of the Hudson 
River rail tunnels, New Jersey Transit is concerned with the 
safety and security of our passengers systemwide. However, I 
caution this Committee respectfully not to deal with rail and 
transit security in the same way as airline security.
    Rail and transit security should be viewed in context. A 
strong public transportation system is an integral part of the 
security of our cities because public transportation is 
essential to evacuating urban centers. On September 11, public 
transportation systems in New York, New Jersey, Washington, and 
throughout the country carried hundreds of thousands of 
passengers and walking wounded out of harm's way. At the same 
time, airports were shut down, highways were packed with 
congestion, and all Hudson River crossings were shut down. We 
were the only thing moving--ferry and rail--that was it. In 
times of crisis, our transit systems serve as our cities' best 
emergency escape.
    Public transportation is also a target, as we have heard 
continually. Because it is so vital to the evacuation of 
cities, it must be doubly protected. But the approach to the 
security of trains and buses must be, by the very nature of its 
mode, different from those of airports and airlines. Airplanes 
are much more vulnerable to catastrophic loss than trains. A 
train cannot be used by a terrorist as a guided missile.
    Access to train stations and airports is also fundamentally 
different. Whereas an airport can restrict passengers to a set 
of checkpoints where security guards have the ability to check 
passengers and luggage, train stations are and must be by their 
nature more open and free-flowing. It is a different threat and 
requires a different approach to security.
    New Jersey Transit is currently completing a full and 
complete review of its security needs. This crucial exercise 
began before September 11, and although that review is not 
complete, we can make some preliminary observations.
    Our first line of defense is our people. Our conductors, 
our bus drivers, our station managers, and especially our 
transit police officers, all play critical roles in keeping our 
passengers secure. Greater police presence not only helps deter 
terrorist activities, it helps us respond to emergencies.
    We already have National Guard troops at New York Penn 
Station to supplement police needs, but in the long term, we 
need more men and women on the beat. In addition, security 
cameras, bomb-sniffing dog teams, communication equipment, and 
emergency response equipment are also needed. Certain facility 
improvements such as permanent security barricades will also 
make the job of protecting transit assets easier.
    Many of our personnel, both police and others, need 
additional training to help them better respond to threats such 
as biological weapons attacks.
    But for all the high-tech security wizardry, I cannot 
stress enough the importance of the men and women of our 
transit police departments. A security camera is useless unless 
there is someone to monitor it in the control room. They have 
made a heroic effort, and we need to continue to support their 
efforts.
    I realize that airline security has dominated the news, and 
I commend this body for your efforts to secure our skies; it is 
critical. But improved airline security is not enough. We 
should focus on transportation security as a whole. In that 
context, the security of transit operations should be a 
priority. We are an essential part of this Nation's homeland 
defense in that we provide the means of escape when other modes 
unfortunately fail.
    I want to thank this Committee, this Senate, and this 
Congress for your efforts, and I urge you to do all you can to 
help New Jersey Transit and transit agencies throughout the 
Nation to respond to and prepare for the security needs of a 
new century. Thank you.
    Chairman Lieberman. Thank you, Mr. Warsh, for an excellent 
statement.
    Just out of curiosity, earlier on, you made a reference 
about guards on bridges and tunnels; I think it was Amtrak that 
you were talking about, weren't you?
    Mr. Warsh. Yes, Amtrak's bridges and tunnels. Although New 
Jersey Transit goes through Amtrak's tunnels and bridges, 
Amtrak takes care of that security, and they will speak for 
themselves.
    We also have 20 or 30 rail bridges throughout the State in 
addition to key tunnels that lead to Hoboken Terminal and in 
turn lead by ferry and PATH to New York. We protect those 
tunnels ourselves.
    Chairman Lieberman. So are you putting in extra measures of 
protection since September 11 with regard to those?
    Mr. Warsh. Absolutely. We have posts on both sides of all 
bridges and tunnels under our jurisdiction. We have posts on 
all power substations that we have been alerted by the FBI 
could potentially be targets.
    Chairman Lieberman. ``Post'' meaning there is a security 
person there?
    Mr. Warsh. A New Jersey Transit police officer, armed and 
ready.
    Chairman Lieberman. Good. Ernest Frazier is Chief of Police 
and Senior Vice President for System Security and Safety for 
Amtrak.
    Chief Frazier, we are delighted to have you here. Thank you 
very much.

   TESTIMONY OF ERNEST R. FRAZIER, SR., ESQUIRE,\1\ CHIEF OF 
   POLICE AND SENIOR VICE PRESIDENT FOR SYSTEM SECURITY AND 
                         SAFETY, AMTRAK

    Mr. Frazier. Thank you, Mr. Chairman and distinguished 
Members of the Committee. Thank you for inviting me here today 
for this very important discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Frazier appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    As mentioned, I am the Senior Vice President of System 
Security and Safety for Amtrak's national network. I am also 
Chief of Police of the Amtrak Police Department, a nationally-
accredited police force of 350 officers whose role is to 
protect Amtrak's customers, employees, and property. We have 
been the lead agency in assessing Amtrak's security procedures, 
both before and after the tragedy of September 11.
    Amtrak has been operating on maximum alert since September 
11. Within moments of the attack, we suspended all Amtrak 
service nationwide to allow for a top-to-bottom security sweep. 
All trains, tracks, bridges, tunnels, stations and other 
facilities, including those controlled by others, were 
inspected within hours, and security personnel remain stationed 
at all facilities 24 hours a day, 7 days a week.
    Amtrak was able to resume operations within a few hours, 
gradually increasing the number of trains until a full 
operating schedule was achieved later that evening. For 3 days, 
when not a single commercial airliner was operating in the 
United States, Amtrak kept business people moving and brought 
stranded family members home.
    In the weeks following the attack, Amtrak took a number of 
intermediate steps to increase our security. We implemented a 
new policy requiring Amtrak guests to present valid photo 
identification and answer security questions when purchasing 
tickets or checking baggage.
    We have created a computer program that automatically 
cross-checks ticket purchases and reservations, whether they 
are made at a ticket counter, a QuikTrak machine, or online, 
against the FBI watchlist on a real-time basis.
    We have suspended onboard ticket sales in the Northeast 
Corridor between Washington, New York, and Boston, which means 
that every guest who boards a Northeast Corridor train will 
have been reviewed for security purposes.
    In addition, we have restricted access to our locomotives, 
conducted emergency drills to deal with a range of 
contingencies, conducted baggage inspections, revised our 
system security plan, and strengthened our partnerships with 
law enforcement agencies at all levels.
    Looking ahead, we are committed to doing everything 
necessary and reasonable to improve our security further. 
Amtrak has created an internal task force with representatives 
from our police, operations, safety, and engineering 
departments. The strategic goals of this task force are, first 
of all, to prevent terrorist attacks from happening, and 
second, to be prepared for emergencies should they occur.
    Our counter-terrorism plan is built around the three 
pillars of deterrence, vulnerability reduction, and emergency 
preparedness.
    To deter attacks on our guests and reduce the vulnerability 
of our facilities and infrastructure, we are increasing police 
patrols, deploying canine teams at major stations, training and 
educating our 24,000 Amtrak employees to be more aware of 
potential threats, conducting increased train and baggage room 
sweeps, securing our sites through lighting increases and 
barrier protections, and installing security cameras, access 
control systems, and hazmat detection and response systems.
    Moreover, since the majority of the tracks we operate on 
are owned and operated by the freight railroads, we are working 
closely with the American Association of Railroads' task forces 
on physical infrastructure, operational security, and 
information security. We are also cooperating closely with the 
American Public Transportation Association and with our 
commuter and transit agency partners.
    In the event that an act of terrorism does occur, Amtrak 
must be ready to deploy its team of emergency responders who 
are continually drilled to handle crisis situations. But the 
real focus here is on the fire departments, police departments, 
and emergency management agencies of the communities where the 
incident takes place.
    Amtrak has a program of reaching out to local emergency 
responders to increase their familiarity not just with Amtrak 
equipment but with the railroad operating environment as a 
whole.
    Mitigating the potential ongoing effect of an incident is 
just as critical an element of preparedness as responding to 
the actual incident. Business continuity, operating continuity, 
rerouting of trains, providing for alternative travel 
arrangements, accommodating passengers and so forth, requires 
foresight and planning and should be a substantial part of any 
preparedness plan.
    As the passenger rail industry has grown to emphasize 
intermodalism, Amtrak's operations have become even more 
intertwined with those of the commuter railroads, airport 
authorities, bus terminals, and the like. The complexity of 
operating a system that carried 23.5 million riders in this 
past fiscal year alone can be a daunting task without a well-
thought-out plan.
    Amtrak is continuing to assess how to keep our system 
running at as close to full capacity as possible while working 
through and recovering from any potential terrorist incident.
    Mr. Chairman, in response to congressional requests, we 
have submitted a $3.2 billion September 11 response package 
that includes key elements for security and safety. An 
additional $1.5 billion would be devoted to bringing railroad 
tunnels in the New York, Washington, and Baltimore regions up 
to modern standards for fire and life safety protection. And 
$515 million is needed to accomplish the deterrence, 
vulnerability reduction, and emergency response efforts that I 
have already described.
    Mr. Chairman, before closing, I would like to point out 
that while Amtrak has a good record on safety and security, we 
also face unique challenges. The foremost challenge is the 
relatively open and intermodal nature of our passenger rail 
system. For example, on an average week day, New York's Penn 
Station handles about 30,000 Amtrak passengers; but at least 
300,000 additional passengers go through the station on the 
Long Island Railroad and New Jersey Transit. Thousands more use 
the station daily to transfer to New York City subways.
    And Penn Station is not unique. For more than 20 years, 
transportation policy has encouraged an open, intermodal 
environment in virtually every train station in the country.
    In the light of September 11, we at Amtrak are not about to 
abandon our historic commitment to an open passenger rail 
system. Rather, our goal is to strike the right balance between 
providing greater safety and security and maintaining the kind 
of open, intermodal design that underpins virtually every rail 
system in the world. I believe that the policies I have just 
described achieve that delicate but all-important balance.
    Thank you once again, Mr. Chairman. I will be happy to 
answer questions.
    Chairman Lieberman. Thank you very much, Chief Frazier. 
Well done.
    We are glad to welcome Dorothy Dugger. Good morning. We are 
pleased that you came across the country to represent the San 
Francisco Bay Area Rapid Transit District.

TESTIMONY OF DOROTHY W. DUGGER,\1\ DEPUTY GENERAL MANAGER, SAN 
        FRANCISCO BAY AREA RAPID TRANSIT DISTRICT (BART)

    Ms. Dugger. Thank you, and good morning, Mr. Chairman and 
Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dugger with attachments appears 
in the Appendix on page 84.
---------------------------------------------------------------------------
    I am Dorothy Dugger, Deputy General Manager of the San 
Francisco Bay Area Rapid Transit District, better known as 
BART.
    Thank you for the focus that this hearing provides to the 
security issues facing our industry, and I join my colleagues 
on the panel in expressing our appreciation to Secretary Mineta 
and Administrator Dorn for the leadership they have provided, 
especially in these challenging times.
    Let me begin with an observation that has already been made 
by Administrator Dorn and others but which I think is an 
important context for our discussion this morning. By 
definition, rail rapid transit systems are characterized by 
high and concentrated levels of service and use supported in 
part by easy, convenient and open access to multiple facilities 
throughout our systems. Due to the very nature of the very 
service we provide, many of the security measures that may be 
available to other modes of transportation simply are not 
available to us.
    The security challenges unique to our mode therefore 
underscore the need to work in partnership with Federal, State, 
and local agencies, and our industry colleagues to identify and 
share best practices and information on prevention and 
mitigation, expedite the development of state-of-the-art 
detection and monitoring equipment and technology, and of 
course, secure funding to implement security and capacity 
enhancements.
    By way of brief background, BART is a 95-mile, 39-station 
rapid rail transit system serving four counties straddling the 
San Francisco Bay. Our work force includes a police department 
of 185 sworn officers. We function as the backbone of the 
regional transportation and transit system, carrying 320,000 
passengers on a normal weekday.
    Today during the peak commute hour, BART carries more 
riders across the Bay into San Francisco than the Bay Bridge 
carries vehicles. In other words, without BART service, we 
would need another deck on the Bay Bridge to deliver the 
morning commute.
    To deliver this level of service, BART operates trains 
carrying 700 to 1,000 riders each every 2\1/2\ minutes through 
the Transbay Tube, one of the most critical assets of our 
system and a visible icon of the Bay area.
    Emergency planning has been a hallmark at BART. As new 
potential threats have emerged, our planning and response 
protocols have evolved accordingly. A detailed emergency plan 
is in place which addresses responses to a variety of potential 
natural disasters and criminal activities. That plan is updated 
regularly and stresses a coordinated response by all involved 
personnel, our employees as well as first responders from other 
agencies using our incident command system.
    Multi-casualty drills are held biannually to hone first 
response capabilities and coordination. We conduct multiple 
orientation tours annually to familiarize other first 
responders to the layout and safety features of our various 
station trackway and station facilities, and we hold impromptu 
in-house drills as well to test and train our field and central 
control personnel on a variety of scenarios.
    Following the Tokyo subway sarin attack, we developed an 
emergency plan to specifically address the potential use of 
nuclear, biological, and chemical weapons. Our employees have 
benefitted from federally-sponsored training programs offered 
by the U.S. Army's Chemical School, the Department of Defense, 
and FTA First Responder Training Center, as well as other 
courses dealing with this specialized subject.
    We have been focused on two areas when dealing with 
potential terrorist activity--prevention of acts on the system 
and mitigation of the consequences if an act does occur. 
Preventive steps have included target hardening and cooperative 
sharing of information, including intelligence information. 
Target hardening has included things like increased use of 
closed-circuit television in our system, installation of 
improved intrusion alarms, and improved use of crime prevention 
through environmental design concepts.
    We have also been involved in several regional groups which 
facilitate the flow of intelligence information critical in 
anticipating terrorist events.
    In the area of mitigation, the need for immediate and 
appropriate first responder actions to save lives cannot be 
overstated. This will require early recognition, immediate 
action to contain the scene, and gathering the necessary 
resources to provide the needed aid, which will not be 
available from a single source.
    As discussed, to make certain this occurs smoothly requires 
planning, training, and practice.
    The terrorist attacks of September 11 revealed a new 
dimension to the potential for criminal acts of terror. 
Accordingly, we have initiated additional steps to further 
enhance the safety and security of our system, with an emphasis 
on high-profile key locations. We are conducting a 
comprehensive update of our system threat and vulnerability 
analysis to make sure that no area is overlooked and that 
limited resources are productively maximized, and we look 
forward to the assistance that Administrator Dorn discussed 
this morning.
    We have increased employee visibility, especially our 
uniformed police presence. We have conducted sweeps of trains 
at selected key locations to check for suspicious packages or 
activities. We have removed trash receptacles at underground 
platforms, closed restrooms, and monitor our elevators 
manually.
    Chairman Lieberman. Excuse me. Do you mean that you select 
trains at random and sweep them? Is that a sweep of passengers 
or the train itself?
    Ms. Dugger. Just the train itself; at key locations as they 
enter a key tunnel or the Transbay Tube, a police officer will 
walk quickly through the 10-car train.
    Chairman Lieberman. OK. Go ahead.
    Ms. Dugger. We continue to stress that counter-terrorism is 
not just a responsibility of our police. Given the pattern of 
terrorist reconnaissance, of research and rehearsal prior to an 
act on many occasions, our focus is on interrupting and 
detecting an action planning process in progress. We have 
communicated with our front-line employees and our customers as 
well to encourage their attention and urging them to remain 
alert to suspicious circumstances and report those to our 
police.
    Reflecting the expert theory cited by Senator Cleland 
earlier this morning, our goal is to become as unattractive a 
target as possible.
    With respect to additional targeting hardening, we have 
installed intrusion alarms at limited key access points. We are 
testing new tunnel intrusion detection technology. Efforts to 
protect train control and communication systems are focused on 
hardening our operations control center.
    In terms of the Federal Government's role in safeguarding 
rail transit systems, we share Mr. White's position that public 
fixed-guideway rapid rail transit systems need to be recognized 
as an important resource in our domestic national security 
efforts. We carry large numbers of people, provide mobility 
throughout large metropolitan areas, and provide lifeline 
transit service, including evacuation in times of crisis.
    Given the heightened security we now face, we urge 
continued Federal support in several critical areas of need for 
our systems. We urge continued funding to support counter-
terrorism measures, the cost of which is simply beyond our 
local capabilities and limited resources. We have preliminarily 
identified approximately $70 million in security-related needs, 
which we have communicated to FTA and to our congressional 
representatives; I expect that number will probably grow as we 
complete our current threat assessment activity now under way.
    These items are attached to my testimony for your 
information, and I will not detail them here, but most of 
them--and this goes, we believe, to the best, most cost-
effective investment--are one-time capital expenditures 
designed to improve our monitoring and detection capabilities. 
By so doing we would not have to depend on a strategy which I 
think financially and physically is not sustainable over the 
long haul or as a routine way of doing business, which is 
reliance on our human resources to provide that monitoring and 
detection capability.
    Chairman Lieberman. What kinds of resources would those be?
    Ms. Dugger. Increasing the use of closed-circuit television 
capability throughout our system; improved connections of that 
information real-time back to central police monitoring 
facilities; electronic keying of our system which, while not as 
old as some of our colleagues' on the East Coast, we are now 30 
years old, and a lot of technology as basic as metal keys as 
opposed to electronic keys can provide much higher levels of 
security, particularly to remote field locations of 
substations, train control rooms, and facilities of that sort; 
redundancy of our communications systems, which we believe is 
critical. We are also very much looking forward to the results 
of the demonstration that Dick White referenced earlier on the 
new technology that is being tested in WMATA for chemical and 
biological detection, which is clearly a vulnerability that 
those of us who operate subway and mass transit systems with 
high volumes of people and high volumes of service face today.
    We also encourage continued Federal funding for the 
training programs that you have heard discussed this morning in 
my testimony and others. Those have been very helpful, and we 
have benefitted from that training.
    And the continued funding that Congress has provided to 
date to the national labs and other research institutes 
supported by DOT and FTA have produced, we believe, useful 
collections of information, whether it be inventories of best 
practices or research into promising new technologies which 
will give us better capabilities.
    We very much appreciate the opportunity to testify today, 
and I am happy and look forward to the questions and discussion 
that will follow. Thank you very much.
    Chairman Lieberman. Thank you very much, Ms. Dugger. I 
appreciate your testimony very much. The four of you have been 
very, very helpful.
    We are now delighted to hear from someone with a somewhat 
different perspective on the problem, Trixie Johnson, who is 
Research Director of what I suppose we should call ``the 
Stormin' Norman Mineta Transportation Institute.'' Welcome.

TESTIMONY OF HON. TRIXIE JOHNSON,\1\ RESEARCH DIRECTOR, MINETA 
                    TRANSPORTATION INSTITUTE

    Ms. Johnson. Mr. Chairman and Members of the Committee, on 
behalf of the Mineta Transportation Institute and Brian 
Jenkins, the head of our counter-terrorism research team, I 
thank you for focusing on this critical topic and for this 
opportunity to introduce our work to you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson with an attachment 
appears in the Appendix on page 91.
---------------------------------------------------------------------------
    MTI is a university transportation center. We were created 
by ISTEA, and we are located at San Jose State University. We 
began our counter-terrorism work in 1996.
    The Executive Overview that I have provided to the 
Committee--this book--covers the first three of our five 
projects.\1\ Those reports are all posted on our websites. 
Since it was published in early October, we have also conducted 
a National Transportation Security Summit here in Washington, 
DC and have initiated a case study of surface transportation 
related to the September 11 New York events.
---------------------------------------------------------------------------
    \1\ MTI Report 01-14 entitled ``Protecting Public Surface 
Transportation Against Terrorism and Serious Crime: An Executive 
Overview,'' October 2001, by Brian M. Jenkins (submitted by Ms. 
Johnson) appears in the Appendix on page 95.
---------------------------------------------------------------------------
    Some quick points about security and the threat to U.S. 
passenger rail systems.
    First, the threat is real. Rail passenger systems, as you 
have heard, are very attractive targets and, as you have also 
heard, not all systems are equal. The larger urban systems are 
much more attractive, but copycats threaten even smaller 
systems.
    Second, security and response absolutely require 
cooperation and coordination among many responsible agencies. 
If there is one theme of this hearing, it would appear that is 
the strongest.
    Third, the right level of security is difficult to 
determine. The threat is hard to quantify. Cost-benefit 
analysis cannot be the sole criterion. And the threat to any 
one individual is minuscule, so basing it on the cost of lives 
saved is difficult to do. We can say the obvious--that the 
larger systems will cost more to secure.
    Fourth, security cannot totally prevent attacks, but it can 
make them more difficult to execute and can reduce the impacts.
    Fifth, we can learn from others. MTI's work emphasizes case 
studies for this reason. We then apply that knowledge in doing 
terrorism vulnerability assessments, not just for transit 
systems but for surface transportation features of all kinds.
    The Tokyo sarin event in 1995, for example, demonstrated 
dramatically that the train and passengers can spread the agent 
as far as they are allowed to go. One train in that system 
traversed the entire system three times before the threat was 
assessed and the train was stopped. Thus, effective response is 
measured in minutes.
    Detection systems, whether they be closed-circuit 
television or the new, up and coming chemical sensors, are 
important investments, and the sensors are a particularly good 
candidate for additional research and development.
    Sixth, the information about best practices must reach 
operators. Investing in information transfer and training is 
important.
    Finally, I would call your attention to two lists. First, 
in my written testimony, you will find a list of 10 low-cost 
measures that every system can do. Second, in the Executive 
Overview, Appendix A is a best practices checklist culled from 
our many case studies.
    That concludes my comments. I will be happy to answer any 
questions that you might have. And again, thank you for the 
opportunity to be with you today.
    Chairman Lieberman. Thank you; very helpful.
    It strikes me that at least three of you have mentioned the 
sarin gas episode in Tokyo, not surprisingly. I suppose that 
was, for want of a fresher term, the wakeup call for transit 
systems, certainly for subway systems, and that a number of you 
responded then and began to put in place prevention plans, 
which probably other parts of critical infrastructure in the 
United States did not do as much prior to September 11.
    I am curious--it is relevant but not directly, and 
something Mr. Warsh said leads me to ask this question. Just to 
go quickly down the row of the four operators, how has your 
passenger usage gone up or down since September 11; do you have 
recent numbers on that? Mr. White.
    Mr. White. Yes, Mr. Chairman. Our ridership is down 
slightly. We largely attribute that to the downturn in tourism 
and to the closing of Reagan National Airport.
    We have the same number or even an increased number of 
people who use us daily for commute purposes. However, in the 
mid-day, evenings, and weekends, our ridership is down a few 
percent, driven entirely by the reduction in tourism. This 
region was severely impacted by the closing of the airport, and 
we are just beginning to recover now. It is the front door into 
the metropolitan area for many people.
    Chairman Lieberman. Interesting; not surprising. Mr. Warsh.
    Mr. Warsh. Overall, we are down in the high single digits, 
8 or 9 percent down, for the entire system. But what has 
occurred in our case is the worst of all combinations--we are 
down overall, 8 to 9 percent, which means our revenue is down, 
but we have seen huge influxes of commuters, particularly 
between Newark and New York, as a result of the changed 
commuting pattern that I described. When 60 percent of those 
jobs moved from the Financial District to Midtown, we saw a 
huge influx to the point where we have 28,000 people a day 
standing on our trains, and that number went up from 12,000 to 
28,000 afterward. So we are overall down as a result of the 
economy and job dislocation, but where those commuters have 
changed to has created enormous crowding and security problems.
    Chairman Lieberman. So the down you think is because of the 
economy.
    Mr. Warsh. We saw prior to September 11 that our numbers--
in the last decade, we grew 40 percent on the rail side and 
about 25 percent on the bus side, 7 percent a year, 
particularly in rail--prior to September 11, we saw that number 
at around 1 to 1.5 percent. So we were slowing consistent with 
the economy slowing, but September 11 accelerated that a little 
bit. It is the shift of the commuting pattern that is causing 
us our most serious problems.
    Chairman Lieberman. Chief Frazier, how about Amtrak?
    Mr. Frazier. Mr. Chairman, of course, directly after 
September 11, we had a major spike in ridership particularly in 
the Northeast Corridor and then throughout the system. It did 
level off. We had a very good Thanksgiving period, and we think 
that ridership will continue to move forward.
    I would mention that, in 1996 in Paris, there was a bombing 
of a train, and in that particular event, they recovered 
business-wise in 3 days, but it took over 3 months for the 
ridership to actually return to the level that it was at prior 
to that event.
    Chairman Lieberman. Thank you. Ms. Dugger.
    Ms. Dugger. We have just come off 3 years of phenomenal 
ridership growth, so we are working from a very high base, with 
about 30 percent increase in ridership over the last 3 years. 
We had started to see that trend down well before September, in 
our belief reflecting the local economy and the economic 
downturn that we have been experiencing in California.
    We have stabilized at about October/November ridership 
levels, which are below last year but not noticeably distinct 
pre- and post-September 11.
    Chairman Lieberman. Thank you.
    I was going to ask you as a first question whether you 
think there is a significant risk of terrorist attack against 
your systems. I presume from the opening testimony that each of 
you made that you do take the risk seriously.
    Does anybody want to add to that?
    Mr. White. Most definitely, I think we recognize the risk 
of terrorism, for all the reasons stated by you, Administrator 
Dorn, and other Members of your Committee.
    We recognize that we are a target, and I think, as Ms. 
Dugger put it, we want to make ourselves as unattractive as we 
can. Terrorists seek to terrorize, and they look for 
vulnerabilities and weaknesses. They study you and study you 
and study you, and when they see your weakness, they hit. If 
they do not see it, they will go to another target. And we are 
hoping that we, individually, and we, collectively as an 
industry, show that level of preparation so that they will be 
deterred. But there is no denying the fact that we recognize 
that staying on top of it and being prepared and showing that 
you are prepared is the key issue.
    Chairman Lieberman. Chief Frazier.
    Mr. Frazier. Mr. Chairman, transportation, not airlines, is 
at risk in this country. That is a fact.
    Chairman Lieberman. That's right.
    Mr. Frazier. The reality is that all modes of 
transportation need to be considered in our plans to try to 
make sure that we have coverage. Those numbers are phenomenal 
with respect to the people who ride on surface transportation 
in this country, and it is my belief that as we move forward, 
we need to look at the technology, the best practices, all the 
things that we can do, and we need to translate and look very 
closely at how they can be used in each of our modes of 
transportation across the board now in order to improve the 
security.
    Chairman Lieberman. I agree. I hope that we can act 
expeditiously and more generously than we have thus far this 
year to get you as much of that $3.2 billion as you need--which 
incidentally does include the work on the tunnels--is that 
right--leading into New York. I know that there was a DOT 
Inspector General report last year, I believe, which pointed to 
the vulnerability of those tunnels--which is quite serious--
long before September 11.
    I have not been over the budget in detail, and I cannot 
tell you that every dollar that you think you need is as much 
as every other dollar--but this is real national security now, 
and it is as important as our defense budget. So I hope we can 
get together across party lines and make that happen.
    I was quite interested, Chief, in something you said 
earlier, which was that post-September 11, you shut down the 
Amtrak system and did a rapid check including, I believe I 
heard you say, of your tracks. I am curious--do you have the 
capacity to do that quickly, because that is one of the things 
that we all would worry about, of course, that the tracks are 
all over the place, and how do you maintain their security.
    Mr. Frazier. Mr. Chairman, we have a plan in place and have 
had a plan in place for some time, based on accidents. I think 
the rail industry and passenger rail is very ready to deal with 
weather-related problems, Hurricane Floyd. Those sorts of 
things helped us put together contingency plans that were very 
effective to deal with whatever happens. The events of 
September 11 caused us to initiate those plans, and as a part 
of them, our engineering department goes immediately out, and 
they start inspecting. They walk rails, and we establish people 
at the portals, as has been mentioned by Mr. Warsh, and those 
programs just automatically happen.
    Interestingly, this time, we are having great difficulty 
sustaining it. That is the problem. We are always ready to go, 
we are always ready to respond, and we can do that anywhere in 
the country. But it is difficult now to maintain, as has been 
mentioned, those guards and those engineering personnel out on 
the right-of-way every day.
    Chairman Lieberman. Do you mean financially?
    Mr. Frazier. Yes, sir.
    Off-corridor, of course, we depend on freight railroads in 
this respect, and we depend on our State and local police 
authorities to help us, and we have reached out to every single 
watch commander where there is an Amtrak train anywhere in the 
United States, and we have asked them to visit our stations, 
visit our infrastructure, and work with us daily.
    Chairman Lieberman. Thanks, Chief.
    My time is up on this round. Senator Voinovich.
    Senator Voinovich. First of all, it is music to my ears to 
hear that most of you have been very complimentary to Secretary 
Mineta and Ms. Dorn for the jobs that they are doing.
    Second, it is comforting for me to know how much all of you 
have been doing prior to September 11 to prepare for some type 
of terrorism, emergency, or whatever.
    Third, Chief Frazier, you talked about the issue of 
coordinating with local government people. So often, I think 
those of us here in Washington take for granted what is being 
done at the local level, and it is nice to know that you are 
coordinating with the fire and the police and the EMS and the 
hazmat people so that you can respond quickly.
    One thing that impressed me when they had the bombing at 
the Pentagon was that it was not the Federal Government that 
was on the line, it was the local police and fire that really 
took over and had their emergency response people there on 
board.
    It is also nice to know that the school that is doing all 
the research work is named after the Secretary. It gives me 
some comfort to know that he certainly knows a little bit about 
transit, or certainly that school would not have been named 
after him.
    So I think this document--one of the things we are 
concerned about is whether we have the best practices out 
there--I have just looked through it quickly, but it is really 
good stuff. I do not know whether all of you have looked at it.
    Was this put together in coordination with the Department 
of Transportation, Ms. Johnson?
    Ms. Johnson. Our funding comes from the Department of 
Transportation, and our research team, of course, does speak 
with various officials of the Federal Government in preparing 
their materials. But most of our work has been case studies at 
localities where events have occurred, and that is essentially 
a summary of the other documents in the case studies and 
symposia from the past.
    Senator Voinovich. A thought that I had listening to you 
was that it would be interesting, Mr. Chairman, if we had a 
clearinghouse in the Homeland Security Office. Right now, for 
example, I would really like to know about the Hart Building, 
and the last we heard was that the technology was not working 
as they thought it would work. I talked to a provider 
yesterday, and they said they would like to provide it, but 
they need to do some testing.
    It would be interesting to see--if we could go across the 
table--things that you in transit need, rail transit, 
buildings, you name it. I think it would be really worth our 
while to get into that and identify the areas where we need 
some real technology and what is out there and what works, so 
that in the event we do encounter something like we have had, 
we can move in right away, and it is not hit-and-miss as we 
have seen.
    The Chairman asked a question about the role of the Federal 
Government. It is interesting that in Mr. White's testimony, 
you were talking about security and capacity. I got the 
impression that you do not have the flexibility that they have 
in New York, because they have more tracks and more trains and 
so forth. So to do what you are suggesting, I would think, 
would cost a lot of money. What should be the role of the 
Federal Government, and then, where do you spend the money--
infrastructure, personnel? Ms. Dugger, you talked about 
technology, and I heard from you that you need $70 million for 
technology so we can get some of these things in place. How do 
we best utilize the dollars that we have to get the best 
return, understanding that there is a limited amount of money 
available?
    Any of you may answer that.
    Mr.  White. I will take the first crack. Clearly, 
technology is essential for multiple reasons, not the least of 
which is to help relieve us from the need to sustain this 
effort for quite some time. With this continued state of high 
alert, it places great strain on an organization to have your 
employees working 6 days a week, 12 hours a day, over a very 
lengthy period of time. It is going to wear you out.
    I think there is a strong role that the Federal Government 
can play in helping us all to evaluate and make some 
suggestions on the appropriate technologies that we can be 
using--intrusion alarms, CCTV, bomb-proof trash cans, and new 
and modern facial recognition systems that we last used in this 
country with the Superbowl last year. We talk about open 
systems and how we have large numbers of people running through 
our fare systems very quickly; I think it is not too far from 
now that this technology will evolve to provide us with the 
capability of being able to utilize facial recognition 
technologies connected to databases identifying people that we 
should be tracking. We would then have real-time information 
when people enter our systems.
    We heard about with the Moscow experience and how anthrax 
can be spread from end to end in a remarkably short period of 
time. The key issue for us is chemical sensors. We are now 
testing these sensors in coordination with the Departments of 
Justice, Energy, and Transportation, and with all the major 
national labs, under the Department of Energy. And we have now, 
after 13 months, deemed the technology to be workable. It is 
now technologically feasible----
    Senator Voinovich. May I just say that I visited two post 
offices in Ohio, and they would love to have that information. 
I said, ``Why can't you put a gizmo in here that would sense 
what kinds of chemicals are here?'' And what I got from them 
was that it is just not out there. You are telling me that 
there is a real breakthrough here.
    Mr. White. Well, it is because we were fortunate to be 
selected by the Departments of Defense and Energy to be the 
test bed of this reapplication of defense technology into the 
civilian sector. Everybody has been watching this. As I said in 
my remarks, there is nobody in the world that has it right now, 
and it has now proven to be workable. We are ready to 
operationalize this. We only have it installed in one station 
right now. It is a substantial investment. It is a lot of 
money. In our case, it is $80 million to protect our 
underground stations. It is a significant investment, but given 
the scope of such a threat to the numbers of people who are in 
our system--we have 80,000 people in our system in 1 hour 
during the morning and afternoon--imagine what could happen if, 
as been suggested, something can move through the system as 
trains moving through the system and dragging a substance 
along. So you need those kinds of technologies and response 
procedures in place. It is not too far from now that we believe 
the capability for biological, as well as chemical detection, 
will be technologically feasible. The next step is to help 
secure chemical, and then biological sensors. In my mind, that 
is probably one of the most significant investments given the 
risk factors that we are confronting. It is expensive, but to 
my mind, technology is very key.
    Chairman Lieberman. Mr. Warsh.
    Mr. Warsh. Mr. Chairman, with respect to the overarching 
issue of the role of the Federal Government in mass transit in 
general, I frankly sing from the same page as your colleague 
from the great State of Georgia, Senator Cleland.
    One of the major issues is that even if you look back at 
the most recent T-21, while mass agencies saw the pie grow to 
the highest level it had ever been, mass transit still slipped 
as a percentage of the overall pie compared to our friends on 
the asphalt and concrete side of the equation; we slipped.
    When you talk about our problems at New Jersey Transit, and 
indeed all the commuter rail agencies on the East Coast in 
Amtrak territory, the Federal Government's starvation of Amtrak 
from both the capital and the operating side places huge 
burdens on us as a commuter rail agency. We have put countless 
billions of dollars into the Federal Government's asset. New 
Jersey Transit spends a minimum of $25 million a year, and in 
some cases, hundreds of millions of dollars a year putting 
money and investment into the Northeast Corridor, because those 
investments are not sufficient from the Federal Government, and 
they are our lifeline, not only for New Jersey Transit, but for 
the State and for the region.
    When you do see the investments that are placed in the 
State of New Jersey in particular, our Hudson-Bergen light rail 
system which has received ISTEA grants and T-21 grants, was 
built and operational in 40 months, on budget, on time, and was 
ready on September 11. We saw an 80 percent increase on Hudson-
Bergen light rail, the world's newest light rail system, just a 
spit of water across from the World Trade Center. We received 
the burn victims. We received the Wall Street refugees. We 
removed seats from two cars and had materials carried up and 
down the so-called Jersey City ``gold coast,'' which became 
Ground Zero literally in a matter of minutes--and without that 
Federal investment and without the State match from the State 
of New Jersey, the waterfront would have been bedlam instead of 
a quickly-organized triage area.
    So when you ask me what should the Federal Government's 
role be in mass transit, it is large, and it needs to get 
significantly larger, with the acknowledgement that we are not 
only mass transit assets, economic development assets, mobility 
assets, but national security assets.
    With that in mind, I would think that it is necessary to 
expand the role of the Federal Government.
    Ms. Dugger. Hear, hear.
    Mr. Frazier. With respect to my position as a chief as it 
relates to this issue, there are a couple of areas which are 
very important. First of all, the intelligence issues that have 
been addressed and are being looked at very thoroughly by 
Congress and by the Executive Branch are critical things. We 
need to know what is going on.
    But another area that I have touched on briefly that I 
think is just important is that there is an awful lot of 
existing technology that is in the government now. It is in 
various Federal departments--it is in DOE, it is in the FBI, it 
is in DOD--it has different applications and has been developed 
for different applications. We need to look at that 
comprehensively, and we need to make that available. We also 
need to look at research and development dollars in terms of 
what it is that owners and operators of transportation systems 
can do reasonably well to improve security from that 
standpoint.
    I like to take a dual approach to what we are looking at. 
Part of the package that Amtrak has put forward is for 
emergency notification system improvements. That does not just 
help in terms of security, it helps us to run the railroad. And 
operators are going to be very much interested in the Federal 
Government working with us in light of that dual approach to 
things to try to identify ways for us to do business well and 
effectively in terms of our mission.
    Finally, I think that best practices are international and 
national, and the collection and dissemination of that 
information is a third area where I would expect there would be 
a very important role for government to engage in.
    Ms. Dugger. Very briefly, I would just echo--I think the 
question was is there a Federal role in mass transit, or is 
that a local, regional, or State responsibility--I would concur 
whole-heartedly with Mr. Warsh's comments. If you look at the 
size of local economies served by the majority of the large 
rapid rail transit systems, they are an important contributor 
to our overall national economic health and well-being, and 
transit plays a critical role in sustaining the mobility and 
the functioning of those areas. So I concur whole-heartedly; I 
believe there is a strong Federal role and one that, 
proportionate to other modes of transportation, should continue 
to grow as has been the Congress' actions over the last 
authorization period.
    We have identified an overall number, Senator, of $70 
million, and I believe that number will get larger, not 
smaller. It does not include the application of a detection 
system that Mr. White has discussed today, for example; that 
would similarly be a big number for our system as well.
    I will also say, however, that there are increments of 
improvement that can be made, and relatively small infusions of 
capital funding, with discretion to the local system to apply 
that most effectively, I think could make a significant 
improvement to our monitoring and detection capabilities.
    I concur with my colleague from Amtrak; I think the reality 
is that we will never be 100 percent failsafe. I do not think 
we can spend our way to that level of protection by the very 
nature of our systems, and the needs are huge, but I think that 
we can make incremental improvements with smaller increments of 
funding against these total needs that we have identified.
    Chairman Lieberman. Ms. Johnson, do you want to add 
anything?
    Ms. Johnson. They are repeating everything we have learned 
over several years of study.
    Chairman Lieberman. That is great. Thank you.
    Thank you, Senator Voinovich, for good questions and very 
good answers. There obviously is a major Federal role here to 
be supportive of you. I do not think any of us are ever going 
to achieve in life--or in transit--perfect security, but 
obviously, we have to raise our guard as much as we can.
    I was quite interested, Mr. White, in what you and others 
said about the rising role of technology in dealing with some 
of these problems. In the discussion I had with Ms. Dorn on the 
first panel on the point of whether we should prevent or 
mitigate--it seems to me that you are all involved in both, 
quite appropriately, doing everything you can to prevent and 
also to mitigate. But I was quite interested in the special 
problems you have that aviation does not have in applying 
security--that it may be, for instance, in the application of a 
facial recognition system as that becomes technologically 
feasible, that you are going to be able to do a real-time check 
on people who at some point have to either buy a ticket or pass 
through a gate or something where you are going to be able to 
check them quite rapidly. That is going to be very important.
    Senator Carper, thanks for being here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, thanks very much for holding 
the hearing.
    To our witnesses, this has been exceptionally good and very 
helpful testimony, and we appreciate your being here.
    Who among you is from the Washington, DC area?
    Mr. White. I am, Senator.
    Senator Carper. And who is from New Jersey?
    Mr. Warsh. That would be me, Senator.
    Senator Carper. And from California?
    Ms. Johnson. I am from California, Senator.
    Senator Carper. Is anyone from the first State to ratify 
the Constitution? [Laughter.]
    Mr. Frazier. I am, Senator. I live in Middletown, Delaware.
    Senator Carper. Middletown, Delaware, just down the road.
    Chairman Lieberman. Did you know that, Senator Carper?
    Senator Carper. I was tipped off, I must say.
    Welcome to all of you, and Chief Frazier, we are delighted 
that you are here.
    Reflecting back on what some of you have said in your 
testimony and what my colleagues have said as well, I want to 
start off with one of the last comments. Someone said we will 
never be 100 percent failsafe, and we will never be 100 percent 
secure. My suspicion is that most of you run operations where 
you have an operating deficit, and the Federal Government makes 
up for that operating deficit. You do not pay out of the fare 
box for the costs of running your operations that you incur.
    How do you go about establishing priorities with the 
dollars that are available to enhance security? In each of your 
operations, how do you say, ``We had one dollar, and this is 
where we spent it; we had another dollar, and this where we 
spent it''? How do you set those priorities? Mr. White.
    Mr. White. Yes, Senator. First, on the operating side, 
unfortunately, we no longer get money from the Federal 
Government for operating expenses, except for very limited 
preventive capital maintenance purposes. We do fortunately get 
capital investment resources from the Federal Government.
    So it is difficult to prioritize our capital investment 
resources. Clearly, I think one of the problems that we all are 
now experiencing is that given the placement of this on our 
list of concerns, and given all the other investment 
requirements that we have, it is certainly presenting some 
great difficulties for us as we try to decide whether we repair 
and replace that asset that is now 25 years old to make sure 
that our system remains reliable, or do we now need to start 
investing these same dollars that we have been receiving for 
these other purposes. I think the big challenge has been 
finding money to fit this priority within the confines of the 
existing program.
    What we have done--and it is a bit of a fluid situation--
through risk assessments that we have conducted, both ourselves 
and with third parties is to try to understand our areas of 
vulnerability areas. We have attempted to prioritize from A to 
Z, on a list that at this point totals about $190 million, 
where we would put our first dollars. We have done that by 
looking at our vulnerabilities and understanding where the 
highest impact of dollar one would go.
    I would echo Ms. Dugger's comment that the extent to which 
we are able to benefit from supplemental investment that might 
come from the Federal Government, it is important to allow us 
discretion and not tie our hands by saying it should go for 
this or that particular purpose. It is very, very useful to us 
to have flexibility, because I do believe that we are closest 
to the situation and best able to understand where the 
priorities should be.
    That is how we approach it, Senator.
    Senator Carper. Thank you. Mr. Warsh, how do you do it?
    Mr. Warsh. The way we rank it--and we are not a subway 
system; with the exception of a small section of the Newark 
subway we tend to be above grounds, so that our costs to 
provide the best security we can provide are significantly 
lower than the subterranean systems, and rightfully so.
    We are looking about a $30 to $40 million increase in our 
security needs, and the way we break that down in terms of 
priorities is that we need manpower. We have broader 
jurisdiction, the New Jersey Transit Police, than our New 
Jersey State Police do; they have 3,000 men and women in 
uniform, and we have 111. We have jurisdiction not only 
Statewide, but as well as in New York City and in Philadelphia, 
where our buses and trains also go.
    So we are now at the point where we are moving to an 
authorized strength of 141; we are hiring 30 police officers 
now, and we have just received a report from the Bratton 
Group--the former New York City Transit Authority police chief 
has his own consulting firm with the Krohl folks--indicating 
that we would need to substantially beef up our police force 
beyond that, including SWAT capability, and so on.
    So we are focusing on manpower in addition to the normal 
technological advances that we make. But I would like to make 
one important point. We believe that the least expensive 
investment we can make is to in essence deputize our 
passengers, to have them take control of their own lives and 
their own destiny, to take a look around to see if anything 
looks suspicious. The conductor is in charge of the train, and 
we go through basic education. It is not the engineer, the 
person who is driving the train; that conductor is in charge of 
that train. You find the man or the woman in the hat and tell 
them that something does not look right, whether it is anthrax 
scare or some other kind of security issue. We have entered 
into a public relations campaign where there is literally an 
Uncle Sam poster saying, ``You have got to remove your garbage 
for your own safety.'' It is critical, whether it is in the 
Mineta Institute or just common sense, when people walk down 
the aisle of that train or bus, if everything is clear, then 
you know that there is nothing suspicious; when there is a pile 
of innocent newspapers, is it an innocent pile of newspapers, 
or is there some kind of a problem beneath it? And it all 
starts with people simply removing garbage.
    So in addition to planning and expense, we are in essence 
deputizing our passengers--take control of your own life, take 
control of your own space.
    Senator Carper. Thank you.
    Chief Frazier, the question for Amtrak is especially 
relevant. Last Friday night, until about one o'clock Saturday 
morning, we were debating the Department of Defense 
appropriations bill, and we included in that bill moneys for 
homeland defense. Included there was a very modest down payment 
for homeland defense with respect to Amtrak; I think $100 
million was included in the legislation. That compares to a 
request from the chairman of the authorizing committee, Senator 
Hollings, who had requested $3.2 billion.
    At Amtrak, how do you go about deciding how to invest $100 
million for greater security with a needs list that obviously 
goes beyond that?
    Mr. Frazier. Senator, you are absolutely right. In fact, on 
October 17, at the Senate Commerce, Science, and Transportation 
Committee, we did receive a unanimous vote for $1.77 billion in 
safety and security improvements throughout Amtrak; however, to 
date, this measure has not seen floor consideration.
    We have spent $12 million to date on security because we 
just simply the made the decision--the right decision as the 
national railroad--that we have to protect our passengers and 
employees. Safety and security are the No. 1 priorities of 
Amtrak, and they are not negotiable.
    Obviously, additional dedication of our very scarce 
resources to security will continue to have an adverse effect 
on our other operations, our train operations. We are forecast 
at this time to spend somewhere around $50 million on security 
just to stay at this intermediate level where we are.
    This recognizes that the U.S. Government has issued three 
general alerts advising law enforcement agencies to stay at 
their highest level. In truth, because of our business in 
transportation, Senator, we have not relaxed security at all 
since September 11, and that is where that money will come up--
every time that alert goes out, we have officers who are 
working 12-hour shifts--and I spend a lot of time along with 
senior staff trying to figure out just how much they can do so 
we can keep up with what is going on.
    So it is particularly trying and difficult when you 
intersperse the security issues and the significance of them to 
the national rail system on top of the self-sufficiency issues 
and the fact that we are of scant resources, as my colleague 
has adequately and very effectively put, at Amtrak. This is 
making it much, much worse every day.
    How would we spend the money? There are actions and 
countermeasures. We would first look to deal with ratcheting up 
and down based on the threat level. That is why, as I mentioned 
earlier, the intelligence is very important to us. Based on the 
threat level, we may do certain things, and that is the kind of 
concept that we have deployed at this point. So that puts a 
measure--it is not just, OK, we are going to go out and put up 
Jersey barriers, and we are going to put all police officers on 
12-hour shifts, and we are going to keep that going and keep it 
going. These security alerts are extremely critical to our 
making good, solid decisions as relates to how we spend money 
as we ratchet up and down in terms of our security preparedness 
at any given time.
    I agree as well that initially, our effort needs to be to 
increase the number of officers who are on our platforms and on 
our trains. That was a new program that was initiated 
immediately after September 11. Amtrak police officers began 
riding certain trains on the Northeast Corridor. We certainly 
do not have enough officers, enough special agents on trains, 
to be able to do that everywhere, but we would certainly think 
that in light of the issues that relate to baggage control and 
in light of the screening process and the ability for a law 
enforcement officer to do things in conjunction with that 
daily, that is a way for us to make some major improvements.
    We would also, and have in fact, initiated already an 
effort to increase our canine division. At airports throughout 
the United States, there are canine detection systems--a dog 
and a handler--that are a critical part of that function of 
screening passengers, and in fact, they are being depended on 
preliminarily in many ways while the technology and the big, 
new machines are being put into those airports. That needs to 
be transferred. We need to put more of these very flexible 
animals along with handlers who can detect problems in our 
baggage areas and of course, in the main areas of our 
concourses throughout our major stations.
    So we are prioritizing in those areas right now. Meanwhile, 
we are working in fact with FAA on trace detection and 
experimenting with that. We have some x-ray machines, and we 
are experimenting with those, and we are also looking at 
technology, and hopefully, we will be able to learn more about 
that as the days go on.
    Senator Carper. I have a follow-up question, but I want to 
go right to Ms. Dugger and ask her to tell us again--how do you 
determine how to spend that next dollar for security?
    Ms. Dugger. We do things very similarly to my colleagues 
whom you have already heard from this morning. At this point, 
there are no additional dollars coming into our coffers tied 
specifically to security, so our first prioritization with the 
available dollars is do we spend them on security or do we 
spend them on replacing aging equipment which is also essential 
to providing safe and secure service to our customers day in 
and day out. That is the first level of balance and 
prioritization.
    In our business, I find that it is some of each; we are not 
at the point where we are able to meet 100 percent of our needs 
in any given area, so it is a constant balancing and 
prioritization, as you said.
    Within the security investments and the funds that are 
available for that, again, our basic starting point is a 
vulnerabilities assessment, where is our greatest 
vulnerability, where do we have the least resources to protect 
against that vulnerability. In our case, some of those 
locations are physical access points, to put vulnerable 
portions of our system underground--tunnels, Transbay Tube--
where we do not have employees and customers going through 
those areas and being able to provide eyes and ears, as an 
example.
    We are also looking very hard--and I have said it a couple 
of times this morning--at places where one-time, limited 
capital investments such as in closed-circuit television 
monitoring, can free up police officers, human resources who, 
in our system, like everyone else you have heard from, have 
been operating on 12-hour shifts, 6 days a week, and even if we 
could afford that--our overtime budget has doubled since 
September 11 for our police department--even if we could afford 
that financially, our people cannot sustain that as a way of 
doing business, and I think that what we are recognizing is 
that we have entered a new environment in which to do business. 
So that looking at sustainable, long-term, ongoing, increased 
levels of security and monitoring is the reality.
    Those are some of the considerations that we bring to bear.
    Senator Carper. Thanks very much.
    Mr. Chairman, I have more than used my time. I wanted to 
ask a specific question about tunnels and tunnel safety. Will 
we have a second round?
    Chairman Lieberman. Go right ahead now. It is an important 
question. It has been touched on a bit previously, but go right 
ahead. We have some time.
    Senator Carper. Thank you very much.
    In the Northeast Corridor, Amtrak controls the Northeast 
Corridor rails from Washington to Boston, and in that area, 
there are tunnels under Washington, DC, there are tunnels under 
Baltimore and, as we know, into New York.
    Could you talk with us, Chief Frazier, about who owns and 
operates those tunnels, a little bit about the age of those 
tunnels, and what security concerns you might have with those 
tunnels?
    Mr. Frazier. Senator, they are Amtrak's responsibility. We 
are and have been for some period of time working to try to 
make, first of all, life safety improvements to those tunnels. 
This starts with the fact that they are approaching, as has 
been mentioned by my colleague, 100 years of age. Ventilation 
is an issue. Egress out of the tunnel during an emergency and 
getting first responders into the tunnel is an issue. It is 
something that we really need to fix and have needed to fix for 
some period of time.
    The security complexity of it adds another dimension, of 
course. It adds a dimension that we need to do things around 
the portals of those tunnels to prevent the introduction of--
the difference between safety and security is the commission of 
an intentional act. That is really the difference. The 
consequences are often the same. But the reality is that 
security costs a lot more because you are trying to thwart a 
thinking human being with criminal intent; you are trying to 
thwart that individual's effort to do something.
    These tunnels represent a major issue for us. Bridges 
represent another major issue for us because of the 
ramifications. In New York, they are underneath the water in 
some respects, some of those tunnels. So you just have to worry 
substantially about what you are doing there. CCTV, as has been 
mentioned previously; we have police and engineering people 
around-the-clock, and they have been there since September 11.
    Senator Carper. In the tunnels themselves?
    Mr. Frazier. Yes. They have actually been on both ends of 
the tunnel at egress points. Since September 11, there has been 
24/7 staffing in this example, in the New York and New Jersey 
area, by Amtrak and by NJT and by the MTA police up in New York 
City.
    Senator Carper. What entities use the tunnels in New York, 
or going into New York, what entities use the tunnels around 
Baltimore, and also in Washington, DC?
    Mr. Frazier. Starting in New York, of course, Long Island 
Railroad and NJT, Metro North, and Amtrak are the users of 
those tunnel systems. In fact, there has been for some period 
of time a joint control and dispatch center that exists and 
coordinates very expansive utilization of tunnels by commuter 
traffic and by transit trains.
    Down in Baltimore, of course, Amtrak uses those tunnels 
along with MARC, and we at Amtrak as well are operators of the 
MARC service.
    And of course, in Washington, it is Amtrak that uses this 
First Avenue tunnel, along with the VRE Railroad, our commuter 
partner, a service that we also run with respect to them.
    Senator Carper. Mr. Chairman, thanks very much.
    And again to our panelists--especially the one from the 
first State--welcome, and thank you for your testimony and for 
your service.
    Chairman Lieberman. Senator Carper has a justifiable degree 
of chauvinistic pride. He is a great advocate for Amtrak, too, 
Chief, as you know.
    A final question to come back to the beginning, and I think 
it is a question that the average person would ask, although I 
think you have done very well at covering the various points of 
vulnerability and what you are doing about them.
    Short of the kinds of technological breakthroughs that 
might feature facial recognition, and acknowledging that in the 
case of Amtrak, for instance, you are now asking for valid ID 
and not allowing passengers to buy a ticket on the train--by 
the way, I am very appreciative that you have a real-time hook-
up database between law enforcement and the purchase of the 
ticket----
    What, if anything, can we do--can you do--to check 
passengers and what they are carrying as they come onto your 
trains? Just as the passengers are and can be the greatest 
defenders of security on a train, obviously, other passengers--
a very small minority of them--can be the source of the 
troubles.
    Mr. White.
    Mr. White. Mr. Chairman, our focus is primarily on 
unattended packages to make sure that not only our police 
department but all of our front-line operations personnel are 
trained and retrained on what to look for.
    Typically, what the pattern will be if someone is trying to 
do something to you with something in their package, they are 
going to leave it somewhere for it to do whatever purpose they 
set out to do.
    I think the issue is a need for heightened awareness and 
being on the alert for unattended packages. I think we need to 
distinguish between an unattended package and a suspicious 
package vis-a-vis privacy issues. Our focus is on making sure 
that all of our front-line employees, everyone from the janitor 
to the station agent to the police officer to the train 
operator, are looking for unattended packages. Also, engaging 
our customers, as Mr. Warsh said, engaging your customer in the 
process is critical.
    For example, what we have seen with respect to ensuring our 
own heightened awareness and that of our customers--for the 
first 8 months of this year, we had 113 reports come in from 
either our own employees or outside parties about suspicious 
packages, bomb threats, or unknown substances; so that is one 
every 2 to 3 days. Since September 11, we have 567 reports, 
which is 6 a day.
    Fortunately, none of those resulted in a consequential 
action. But, the fact that people had heightened awareness, 
both our employees and our customers, and engaged, shows that 
they value ensuring their own safe space, as Mr. Warsh said. I 
think that is very, very important, to ensure that we have our 
employees and our customers fully engaged and on the alert for 
unattended packages and suspicious activities. We need to 
actively engage them in reporting on those incidents so we can 
aggressively follow up.
    Chairman Lieberman. Let me ask you this question, although 
I have a sense of what the answer will be--and people have 
asked it of me--why don't we all have to go through a security 
check device as we enter a train--a metal detector, for 
instance.
    Mr. White. You might get different answers depending upon 
which of us you ask that question, from Amtrak to a commuter 
railroad operator. I am giving you an answer from an operator 
of an urban transit heavy-rail subway system. The amount of 
people that we are funneling through the system with train 
headways that are 2 to 3 minutes----
    Chairman Lieberman. It would really slow it up.
    Mr. White. We are a rapid transit system, and by definition 
we are rapidly moving large numbers of people through our 
system with tremendous service levels. To have those kinds of 
restrictions on access will just totally back up your system.
    Chairman Lieberman. Mr. Warsh.
    Mr. Warsh. Well, we are a commuter rail system, so we do 
not have the 2-minute headways, so to speak, but during the 
peak of the peak, during that peak period from 6 a.m. to 10 
a.m., particularly in the Northeast Corridor, whether it is a 
Northeast Corridor train or a North Jersey Coastline train 
which takes the same path, or what we call our midtown direct 
train, literally every 3 minutes during the peak, there is 
another commuter train coming through that packs 2,000 people 
onto that train. We flat out just do not have the ability to do 
that and still run a railroad.
    The point was made earlier that as the airports become very 
hardened targets, we become much more vulnerable, and that is 
true. What is also occurring is that there is a change in 
perception; as people are experiencing this much-heightened 
level of security at airports and feel good about it, the same 
people--and we just opened an airport connection on the 
Northeast Corridor--are asking, ``How is it that it takes me 20 
minutes to get through security to get on that airplane, and I 
can just walk right onto your train?''
    My response is that the normal travel time from, say, High 
Bridge to Newark is an hour and 15 minutes; if we set up those 
checks, your travel time would be 14 hours.
    So we are either open or we are shut. But we can make 
ourselves as a target harder and harder, and we are doing that, 
but we will never be at the point where we will be able to do 
checks per person; even randomly, it causes us other issues.
    Chairman Lieberman. That is the reality, and this is the 
tradeoff, so you look for other ways, obviously, to create 
security. Maybe at some point, technology will allow you to do 
it.
    Have you thought on NJT about putting into practice some of 
the steps that Chief Frazier has mentioned about Amtrak--I do 
not know if it is feasible--like an ID at the point of purchase 
of tickets, or in connection with law enforcement?
    Mr. Warsh. The vast majority of tickets purchased on New 
Jersey Transit, and I would say on most commuter rail lines, 
are monthly tickets; the vast majority of our folks are 
monthly. We are considering various ways in which we can 
determine the identity of that person, and then, we are dealing 
with the person regularly, month in, month out.
    As far as checking photo ID to the person, then we are back 
to the same situation that we were before.
    Chairman Lieberman. Are they buying tickets at the window, 
or are they buying over the telephone or the internet?
    Mr. Warsh. We have a program called MailTik, and about 60 
percent of our commuter passengers purchase at some point in 
the third or fourth week of the previous month their monthly 
ticket. That is how it is done.
    We are moving now toward e-mail, toward e-commerce, so that 
you will not even have to deal with a letter going back and 
forth, so we will have to deal with fewer letters--and you know 
what I am talking about--and not only does it lower our 
administrative costs, but it increases security for everyone 
involved in the transaction.
    Chairman Lieberman. Chief Frazier.
    Mr. Frazier. I think it starts, Mr. Chairman, with an 
assessment of goals. Is the goal prevention only? Is the goal 
deterrence as a part of what you are doing?
    At Amtrak, of course, we want to prevent bad things from 
happening, and we have been working very hard at that. But the 
next level down is deterrence, and deterrence says basically 
that if you can do some things some of the time to make the 
criminal mind not want to enter your properties to do something 
wrong, to engage in crime, then you have added your measure of 
security.
    So from our level, we are looking at opportunity, in fact, 
to do some random checks of bags. In fact, Greyhound is doing 
some random checks of bags at 30 of their major facilities in 
the country; they are doing a wanding technique. Every Amtrak 
police officer for the last 2 years has had a weapons detection 
wand on his belt. So we have been at that sort of thing for 
some period of time.
    I commented about the canine teams--we would hope to be 
able to deploy them to randomly do some checking of stations, 
facilities--their flexibility allows us to do that--baggage 
rooms.
    I suspect that at the bottom of it all, even with all your 
techniques and your actions and countermeasures that you take 
to improve security, you have to recognize that you are not 
going to get it all. So we would hope to be able to deploy, as 
I have mentioned, some police officers. Unattended packages 
have been mentioned. We have had the same experience, and it 
has been awful. We are just dealing with them, and we try to 
deal with them whether they are hidden, whether they are 
obvious. Those things make a difference in the way we handle 
those sorts of things. And our employees have stepped up 
substantially, and we continue to work to train them with 
programs that will cause them to do inspections, cause them 
when something is not right in the English model--if something 
is not right, employees take certain steps. We are doing those 
sorts of things. That is the planning that goes into trying to 
make sure. They are kind of behind-the-scenes in some respect, 
but they are going on every day, and security is improving as a 
result of that.
    Chairman Lieberman. Good. Ms. Dugger, do you want to add 
anything?
    Ms. Dugger. I fear that by the time you get to this end of 
the table----
    Chairman Lieberman. I should have started at your end 
first.
    Ms. Dugger. Not at all. I think the good news is that we 
are all working in a similar vein and with similar access to 
information and strategy so that there are not big surprises 
when you get to the fourth property you talk to.
    I guess I would add that I think any attempt, again, for 
rapid rail urban transit systems where we are running 2\1/2\-
minute headways and handling thousands of people through our 
stations, it is worse than attempting to provide that kind of 
level of individual inspection--it goes beyond slowing things 
down.
    I believe that our stations do not have the physical 
capacity----
    Chairman Lieberman. It would really stop the system.
    Ms. Dugger. And I think people would make alternate choices 
and abandon the system. Eighty percent of our customers report 
to us that they have a perfectly acceptable alternative method 
available to them to make the trip that they choose to make on 
BART. We have a very attractive profile of customers of choice; 
they are typically making short trips. Our average fare is 
$2.20. We get the same questions, however, from the public--
``Why don't I have to pass through an inspection?''--yet at the 
very same time, as we close restrooms to reduce the opportunity 
for unobserved packages being left, based on past experience, 
where receptacles and even bathroom paneling have been used to 
secrete devices that might expel their damage over a long 
period of time, unobserved--at the very same time that we were 
closing bathrooms on our system to prevent that risk and 
provide security for our customers, I cannot tell you the 
number of letters of complaint and calls and so forth that we 
got for reducing that level of service.
    So that is one very banal example of the tensions that we 
hear about from our customers, who on the one hand are asking 
for security, on the other, not being very tolerant of the 
inconvenience that that entails.
    Chairman Lieberman. Right; and speed.
    Ms. Dugger. So in the interim, perhaps we cannot provide 
positive identification without new technology developments, 
but we can continue to try to reduce anonymity and make 
ourselves, again, an unattractive target. If we could guarantee 
or assure that every person knew that when they walked through 
our system, their image was going to be available to us, if not 
to intercept them in advance, at least to identify them, again, 
that is one kind of step. So, reducing the opportunities for 
secreting devices, hardening up our system, and increasing our 
capability and attentiveness to identifying materials that are 
suspicious or activities that are suspicious, I think is the 
balance given the tools we have available to us today.
    Chairman Lieberman. Well said. Sometime we will come back 
and do a hearing on how you have raised your ridership on BART 
30 percent in recent years--that is another question.
    Ms. Dugger. Brilliant management.
    Chairman Lieberman. Obviously. [Laughter.]
    That is it--no need for a hearing.
    Ms. Johnson. Senator, I just wanted to add one point, and I 
guess it is a bright spot in the testimony, that if you do some 
of these security measures, there are some collateral benefits. 
Most particularly systems that installed the CCTV systems have 
discovered a drop in general crime and in particular vandalism 
and graffiti, which cost urban systems--all systems--a 
considerable amount of money. So there might even be a very 
small financial offset by reduced graffiti and vandalism.
    Chairman Lieberman. Well said.
    It has been an excellent hearing, reassuring in many ways, 
also realistic in the sense that, to repeat, we are never going 
to achieve total security, I think, particularly if we want to 
move people quickly through transit systems. But there are 
obviously some things that can be done, which you are doing, to 
harden the targets, to deter those who would do the systems and 
the passengers on them damage.
    The great hope is technology, and in addition to the 
specific responsibility that the Federal Government has to 
support you as you meet the increased cost of security, it does 
seem to me that there is a special role here for us to do 
whatever we can to accelerate the movement of technology--
related to security--to maintain the convenience and speed of 
the systems that you are overseeing, but also to upgrade the 
security.
    May I say that the four systems that you serve are 
fortunate to have you, and the institute you serve, Ms. 
Johnson, is fortunate to have you. You have been a very 
impressive and helpful group of witnesses.
    The Committee will now absorb what you have said. I think 
we will specifically try to be helpful on the appropriations 
front as we go forward in this new, post-September 11 era of 
American history, but we are going to think about other ways in 
which we as an oversight committee can be supportive of the 
important work that you do.
    I thank you very much. The hearing is adjourned. 
[Whereupon, at 11:45 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               PREPARED STATEMENT OF SENATOR JIM BUNNING
    Thank you, Mr. Chairman.
    Every day, millions of Americans board planes and trains, travel in 
cars on this country's roads, across bridges and through tunnels, and 
some even take ferry boats to and from work.
    In the past, we have taken the relative safety of these modes of 
transportation for granted. However, the events of September 11th 
illustrated just how vulnerable we are and how horrific the 
consequences can be when someone exploits these weaknesses.
    I hope that never again will we take the security of our 
transportation systems for granted.
    This Committee has held many hearings on improving different 
elements of our security. Just last week we looked at the weaknesses of 
our Nation's ports. We have also held hearings on airport security, 
along with the security of our mail system and the ability of our local 
governments to respond to a terrorist attack.
    Today, we are looking at the safety of our passenger and transit 
infrastructure.
    It's not hard to imagine a scenario where many people are killed or 
injured if a terrorist used a train or a metro system as a weapon--
whether by using a bomb or using a chemical or biological weapon.
    The consequences could be devastating, not only to those 
individuals directly affected by the attack.
    But it could dramatically weaken the confidence Americans have in 
their government's ability to protect them as they travel around the 
country or even travel to their local grocery store or to work.
    If we have learned anything from the attacks on New York and the 
Pentagon, it is that we must be prepared for anything.
    Over the next couple of months, we will have to make some 
fundamental changes about how we think about all modes of 
transportation, and what we need to do to protect our citizens.
    I look forward to hearing from our witnesses on this topic today, 
and gaining their perspective on this important issue.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T8047.001
    
    [GRAPHIC] [TIFF OMITTED] T8047.002
    
    [GRAPHIC] [TIFF OMITTED] T8047.003
    
    [GRAPHIC] [TIFF OMITTED] T8047.004
    
    [GRAPHIC] [TIFF OMITTED] T8047.005
    
    [GRAPHIC] [TIFF OMITTED] T8047.006
    
    [GRAPHIC] [TIFF OMITTED] T8047.007
    
    [GRAPHIC] [TIFF OMITTED] T8047.008
    
    [GRAPHIC] [TIFF OMITTED] T8047.009
    
    [GRAPHIC] [TIFF OMITTED] T8047.010
    
    [GRAPHIC] [TIFF OMITTED] T8047.011
    
    [GRAPHIC] [TIFF OMITTED] T8047.012
    
    [GRAPHIC] [TIFF OMITTED] T8047.013
    
    [GRAPHIC] [TIFF OMITTED] T8047.014
    
    [GRAPHIC] [TIFF OMITTED] T8047.015
    
    [GRAPHIC] [TIFF OMITTED] T8047.016
    
    [GRAPHIC] [TIFF OMITTED] T8047.017
    
    [GRAPHIC] [TIFF OMITTED] T8047.018
    
    [GRAPHIC] [TIFF OMITTED] T8047.019
    
    [GRAPHIC] [TIFF OMITTED] T8047.020
    
    [GRAPHIC] [TIFF OMITTED] T8047.021
    
    [GRAPHIC] [TIFF OMITTED] T8047.022
    
    [GRAPHIC] [TIFF OMITTED] T8047.023
    
    [GRAPHIC] [TIFF OMITTED] T8047.024
    
    [GRAPHIC] [TIFF OMITTED] T8047.025
    
    [GRAPHIC] [TIFF OMITTED] T8047.026
    
    [GRAPHIC] [TIFF OMITTED] T8047.027
    
    [GRAPHIC] [TIFF OMITTED] T8047.028
    
    [GRAPHIC] [TIFF OMITTED] T8047.029
    
    [GRAPHIC] [TIFF OMITTED] T8047.030
    
    [GRAPHIC] [TIFF OMITTED] T8047.031
    
    [GRAPHIC] [TIFF OMITTED] T8047.032
    
    [GRAPHIC] [TIFF OMITTED] T8047.033
    
    [GRAPHIC] [TIFF OMITTED] T8047.034
    
    [GRAPHIC] [TIFF OMITTED] T8047.035
    
    [GRAPHIC] [TIFF OMITTED] T8047.036
    
    [GRAPHIC] [TIFF OMITTED] T8047.037
    
    [GRAPHIC] [TIFF OMITTED] T8047.038
    
    [GRAPHIC] [TIFF OMITTED] T8047.039
    
    [GRAPHIC] [TIFF OMITTED] T8047.040
    
    [GRAPHIC] [TIFF OMITTED] T8047.041
    
    [GRAPHIC] [TIFF OMITTED] T8047.042
    
    [GRAPHIC] [TIFF OMITTED] T8047.043
    
    [GRAPHIC] [TIFF OMITTED] T8047.044
    
    [GRAPHIC] [TIFF OMITTED] T8047.045
    
    [GRAPHIC] [TIFF OMITTED] T8047.046
    
    [GRAPHIC] [TIFF OMITTED] T8047.047
    
    [GRAPHIC] [TIFF OMITTED] T8047.048
    
    [GRAPHIC] [TIFF OMITTED] T8047.049
    
    [GRAPHIC] [TIFF OMITTED] T8047.050
    
    [GRAPHIC] [TIFF OMITTED] T8047.051
    
    [GRAPHIC] [TIFF OMITTED] T8047.052
    
    [GRAPHIC] [TIFF OMITTED] T8047.053
    
    [GRAPHIC] [TIFF OMITTED] T8047.054
    
    [GRAPHIC] [TIFF OMITTED] T8047.055
    
    [GRAPHIC] [TIFF OMITTED] T8047.056
    
    [GRAPHIC] [TIFF OMITTED] T8047.057
    
    [GRAPHIC] [TIFF OMITTED] T8047.058
    
    [GRAPHIC] [TIFF OMITTED] T8047.059
    
    [GRAPHIC] [TIFF OMITTED] T8047.060
    
    [GRAPHIC] [TIFF OMITTED] T8047.061
    
    [GRAPHIC] [TIFF OMITTED] T8047.062
    
    [GRAPHIC] [TIFF OMITTED] T8047.063
    
    [GRAPHIC] [TIFF OMITTED] T8047.064
    
    [GRAPHIC] [TIFF OMITTED] T8047.065
    
    [GRAPHIC] [TIFF OMITTED] T8047.066
    
    [GRAPHIC] [TIFF OMITTED] T8047.067
    
    [GRAPHIC] [TIFF OMITTED] T8047.068
    
    [GRAPHIC] [TIFF OMITTED] T8047.069
    
    [GRAPHIC] [TIFF OMITTED] T8047.070
    
    [GRAPHIC] [TIFF OMITTED] T8047.071
    
    [GRAPHIC] [TIFF OMITTED] T8047.072
    
    [GRAPHIC] [TIFF OMITTED] T8047.073
    
    [GRAPHIC] [TIFF OMITTED] T8047.074
    
    [GRAPHIC] [TIFF OMITTED] T8047.075
    
    [GRAPHIC] [TIFF OMITTED] T8047.076
    
    [GRAPHIC] [TIFF OMITTED] T8047.077
    
    [GRAPHIC] [TIFF OMITTED] T8047.078
    
    [GRAPHIC] [TIFF OMITTED] T8047.079
    
    [GRAPHIC] [TIFF OMITTED] T8047.080
    
    [GRAPHIC] [TIFF OMITTED] T8047.081
    
    [GRAPHIC] [TIFF OMITTED] T8047.082
    
    [GRAPHIC] [TIFF OMITTED] T8047.083
    
    [GRAPHIC] [TIFF OMITTED] T8047.084
    
    [GRAPHIC] [TIFF OMITTED] T8047.085
    

</pre></body></html>
